Semiannual Report
 to the Congress
 October 1, 1995 - March 31, 1996




    u.s. General Services Administration
        Office of Inspector General
           Foreword

This report, submitted pursuant to the Inspector General Act of 1978,
as amended, summarizes the activities of the Office of Inspector
General (OIG) for the 6-month reporting period that ended March 31,
1996.

In keeping with the goal of reinventing Government so that it works
better and costs less, we continued to help the General Services
Administration (GSA) to improve its performance in carrying out its
mission. We were involved in all phases of the Federal Operations
Review Model (FORM) process developed by the Agency to analyze all
16 of its business lines. We provided advisory assistance as well as
independent analysis of FORM assessment results.

During the 6-month period, financial recommendations resulting from
our audit reports totaled over $215 million in funds to be put to better
use or in questioned costs. In addition, 361 referrals were made for
criminal prosecution, civil litigation, and administrative action.

I want to take this opportunity to thank the GSA Administrator and
Members of Congress for their support. I also want to commend the
GIG employees for their contributions to our achievements during the
past 6 months. Their continued dedication in these unsettled and
challenging times has helped us to make great strides in our internal
reinvention efforts and to make signiflcant contributions to improving
the economy and efficiency of the Agency's operations.




WILLIAM R. BARTON
Inspector General

April 30, 1996
  Table of Contents

                                                                                                                        Page

Summary of OIG Performance .................................................................................. v

Executive SUlumary ................................................................................................ vii

010 Profile ................................................................................................................ 1

Procurement Activities ............................................................................................. .2

Reviews of GSA Programs ........................................................................................ 6

Prevention Activities ............................................................................................... 27

Review of Legislation and Regulations ................................................................... 30

Statistical Summary of OIG Accomplishments ...................................................... 34

Appendices

Appendix I - Significant Audits from Prior Reports .............................................. .41

Appendix II - Audit Report Register ...................................................................... .44

Appendix III - Delinquent Debts ............................................................................. 62

Appendix IV - Reporting Requirements ................................................................. 63




                                                                                         Office of Inspector General iii
                   Summary of OIG Performance

OIG Accomplishments    October 1, 1995 To March 31,1996

                       Total financial recommendations                                  $215,331,879

                       These include:

                           • Recommendations that funds be put
                             to better use                                              $199,861,583

                           • Questioned costs                                            $15,470,296

                       Audit reports issued                                                 223

                       Referrals for criminal prosecution, civil
                       litigation, and administrative action                                361

                       Management decisions agreeing with
Results Attained       questioned costs, civil settlements, and
                       court-ordered and investigative recoveries                       $119,661,471

                       Indictments and infonnations on criminal referrals                     15

                       Cases accepted for civil action                                        12

                       Successful criminal prosecutions                                        5

                       Civil judgments and settlements                                         6

                       Contractors suspended/debarred                                       148

                       Employee actions taken on administrative
                       referrals involving GSA employees                                     26




                                                                            Office of Inspector General v
Executive Summary

The current climate of downsizing, budgetary constraints, and Agency reorganization
is one that continues to challenge GSA. The 010 was deeply involved in assisting
GSA management with its efforts to make sensible and sound changes in the way
OSA does business. We are committed to increasing the value of the services we
provide, and are working" to enhance our relationships with management, by making
available a broader array of evaluation and analytical approaches. This semiannual
report reflects our increased focus on long-term measures to improve the
effectiveness of GSA's diverse Governmentwide programs.

Significant 010 resources were used to assist OSA management in their assessment
of the Agency's business lines under the Federal Operations Review Model (FORM)
process and to report to GSA officials on the reliability of the assessment results.
GSA developed the FORM, a multi-step analysis, to determine the most efficient and
cost-effective ways to deliver business line services. Initially, the 010 provided
ad hoc, up-front advisory services to 16 Agency teams studying the various methods
for delivering program services. 010 representatives served as independent,
analytical experts on each of the FORM teams, providing accounting counsel,
pointing out potential conflicts with laws and regulations, and seeking to reconcile
procedural inconsistencies. Upon completion of the FORM assessments, other 010
personnel independently reported to key OSA officials regarding whether the FORM
assessments provided a reasonable, supported, and unbiased methodology for
delivering services at the lowest cost to the taxpayer. See page 6.

We have expanded our advisory reports initiative. These evaluations inform managers
of our observations and conclusions without making formal recommendations. This
technique has proved useful when evaluating new and changing programs, especially
when empirical data is not readily available for traditional analysis" Advisory reviews
issued this period included providing insights into expanding a pilot program for
environmental services nationwide, using enhanced demand forecasting for pricing
items in the stock program, and improving integrated technology acquisitions and
support to Federal agencies. See pages 12,23, and 25. We also issued an advisory
report in response to a Congressional request to examine timekeeping practices and
processes used to determine costs and benefits for the Flexiplace Telecommuting
Center program. See page 24.

We continued to place emphasis upon the performance of broad-based program
evaluations that recommend ways to improve the outcomes of GSA's major programs
and activities. This period, several comprehensive evaluations were completed that
contained recommendations aimed at simplifying acquisitions for telecommunication
customers, improving the accuracy and reliability of computerized stock demand
forecasting, assisting other Federal civilian agencies in the management of their
aircraft operations, and reducing life-cycle costing through the application of value
engineering techniques. See pages 3, 10,16, and 18.

Attention remains focused on reviews that help ensure adequate stewardship of OSA
activities. For example, this period we reported on whether required background
checks were performed for employees working in Federal child care facilities,
whether risks associated with a major software acquisition were assessed prior to
implementation, and whether modified construction techniques were considered to
enhance building security. See pages 12, 14, and l8.


                                                           Office of Inspector General vii
                                         Executive Summary

                                         The OIG also continues to provide its traditional services, primarily in support of
                                         GSA contracting functions. Our efforts in these areas help maintain program integrity
                                         and generate significant Government cost savings. This period financial
                                         recommendations exceeded $215 million. Also, based on OIG efforts the Government
                                         obtained $796,519 in civil judgments and entered into four additional settlement
                                         agreements in which companies agreed to pay more than $1.4 million to resolve their
                                         potential civil liability under the False Claims Act. See page 2.

                                         Our organization has made significant strides during this reporting period. We have
                                         seen positive results from continuing efforts to reinvent the way the OIG provides
                                         services. Most of the success is due to the continuing flexibility, adaptability, and
                                         commitment of our staff in these changing times. Weare confident that our efforts
                                         will continue to greatly benefit GSA, its customers, and the American taxpayer.




viii Semiannual Report To The Congress
                                                                                                     i\F1BjR~




                               OIG Profile

                      The GSA OIG was established on October 1, 1978 as one olthe original 12 OIGs
                      created by the Inspector General Act (~l1978. The OIG's six components work
                      together to pelform the missions mandated by the Congress.

                      The OIG provides nationwide coverage of GSA programs and activities. It consists
Organization          of:

                          The Office of Audits, an evaluative unit staffed with auditors and analysts who
                          provide comprehensive audit coverage of GSA operations through program
                          performance reviews, internal controls assessments, and financial and mandated
                          compliance audits. It also conducts external reviews to support GSA contracting
                          officials to ensure fair contract prices and adherence to contract terms and
                          conditions.

                          The Office of Investigations, an investigative unit that manages a nationwide
                          program to prevent and detect illegal and/or improper activities involving GSA
                          programs, operations, and personnel.

                          The Office of Counsel to the Inspector General, an in-house legal staff that
                          provides legal advice and assistance to all OIG components, represents the OIG
                          in litigation arising out of or affecting OIG operations, and manages the OIG's
                          legislative/regulatory review functions.

                          These functions are supported by the Office of Administration, the Office of
                          Quality Management, and the Internal Evaluation Staff. These components
                          provide in-house information systems, budgetary, administrative, personnel, and
                          communications services; promote and coordinate the Total Quality Process
                          program; and plan and direct field office appraisals and internal affairs reviews
                          of OIG operations.

                      The OlG is headquartered in Washington, D.C., at GSA's Central Office building.
Office Locations      Field audit and investigations offices are maintained in Boston, New York,
                      Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San Francisco, and
                      Washington, D.C. Sub-offices are also maintained in Auburn, Cleveland, and Los
                      Angeles.

                      The OIG started FY 1996 with a total on-board strength of 335 employees. As of
Staffing and Budget   March 31, 1996, our on-board strength was 321 employees.

                      The OlG's FY 1996 budget was approximately $33 million.




                                                                                Office of Inspector General 1
                                      Procurement Activities

                                       GSA is responsible for providing working space for almost 1 million Federal
                                       employees. GSA, therefore, acquires buildings and sites, constructs facilities, and
                                       leases space, as well as contracts for repairs, alterations, maintenance, and
                                       protection of Government-controlled space. GSA also operates a Governmentwide
                                       service and supply system. To meet the needs of customer agencies, GSA contracts for
                                       billions of dollars worth of equipment, supplies, materials, and services each year.
                                       We review these procurements on both a preaward and postaward basis to ensure
                                       that the taxpayers' interests are protected. We perform approximately 400 reviews
                                       each year.


Significant DIG                        Over $2 Million in Civil Recoveries
                                       During this period the Government recovered over $2 million in civil judgments and
Accomplishments                        settlements. The Government entered into 4 settlement agreements in which
                                       companies agreed to pay over $1.4 million to resolve their potential civil liability
                                       under the False Claims Act. These agreements, negotiated by representatives of the
                                       Department of Justice and the GSA OIG, reflect the ongoing efforts of the OIG to
                                       pursue cases involving procurement fraud and practices which threaten the integrity
                                       of the Government's procurement process. In addition, during this period, judgments
                                       were entered in favor of the United States for $796,519 in a civil False Claims Act
                                       case.

                                       Many of these cases involved procurements under GSA's Multiple Award Schedule
                                       (MAS) program. Under this program, GSA negotiates contracts with a number of
                                       vendors who may then sell covered products to Federal agencies at established
                                       contract prices. Consistent with the provisions of the Truth in Negotiations Act and
                                       the Competition in Contracting Act, the process is based on the principles of full and
                                       open disclosure and fair negotiations. Vendors must provide current, accurate, and
                                       complete pricing information-including information about discounts granted their
                                       most favored commercial customers-during contract negotiations. Relying on this
                                       information, GSA contracting personnel then seek to obtain the best possible prices
                                       for the Government. In cases where vendors fail to provide current, accurate, or
                                       complete information, the Government may pay artificially inflated prices for the
                                       products and services it purchases. Highlights of these cases follow.

                                           A company that held a series of contracts to provide concession services in
                                           Federal buildings agreed to pay $900,000 to resolve its potential civil liability
                                           for inflating its costs to perform those contracts. The agreement resulted from an
                                           investigation which was initiated after receiving a Hotline complaint which
                                           alleged that the company violated its contractual agreements with GSA. The
                                           contracts provided that the company's profits would be a certain percentage
                                           over its costs. By inflating its costs, the company could manipulate the contract
                                           so that it made more than the agreed-upon profit. In addition to the monetary
                                           settlement, the company also agreed to institute a compliance program to
                                           educate its employees about their obligations under the company's Federal
                                           contracts.

                                           A supplier of photocopying equipment agreed to pay $240,000 to settle its
                                           potential civil liability. The agreement resulted from an audit and investigation
                                           which showed the company failed to fully disclose its discounting policies to



2 Semiannual Report To The Congress
Procurement Activities
                                                                                       -

     GSA negotiators, and failed to pass along price reductions to Federal customers,
     as required by its contract.

     A supplier of hand tools agreed to pay $70,000 for failing to provide the items
     required by the contract. An OIG investigation disclosed that the company
     supplied substandard tools and tools without the brand names required by its
     contract.

     A company that provided architect and engineering services to many Federal
     agencies, including GSA, agreed to pay the Government $305,000 to settle a
     qui tam action under the False Claims Act. The qui tam provision in the False
     Claims Act allows individuals to bring suit, on behalf of themselves and the
     Federal Government, against contractors who submit false claims or false
     statements to the Government. The agreement settled Government claims that the
     company overcharged for computer-aided design and drafting services on a
     number of contracts held by Federal, State, and local entities, including GSA.

     A default judgment in the amount of $646,519 was entered in a civil False
     Claims Act case against both a trucking company that provided GSA with
     hauling services and the company's president. The Government alleged that the
     company had overcharged GSA for freight services. Additionally, as part of the
     same civil action, the company's vice-president agreed, through a consent
     decree, to pay the Government $150,000. Prior to resolution of the civil case,
     both company officials had served criminal sentences for, among other things,
     conspiring to defraud the Government.


 Purchase of Telecommunications Services
 Federal agencies can buy telecommunications equipment and related services through
 the Purchase of Telecommunications Services (POTS) contracts or Multiple Award
 Schedule (MAS) contracts. POTS contracts offer new or used telephone equipment,
 and provide installation, maintenance, and repair services. Other services such as
 system planning, equipment layout, design assistance, and training are also available.
 These contracts are non-mandatory contracts and allow agencies the option of
 obtaining equipment and services from other commercial sources. The POTS program
 sales totaled approximately $38 million for Fiscal Year (FY) 1994 and $43.6 million
 for FY 1995. GSA recovers the cost of administering the POTS contracts through a
 surcharge which is paid by customer agencies. The MAS contracts offer at lower
 prices much of the same equipment as available under the POTS contracts. However,
 few currently offer the maintenance and services which can be obtained through the
 POTS contracts. Some MAS contracts now include installation/de-installation
 services, free training, and design assistance.

 Our evaluation of the POTS program determined that GSA may want to explore the
 possibility of expanding the MAS contracts to include product maintenance and
 service, as offered in the POTS contracts. Such a change would eliminate GSA's need
 to solicit, negotiate, award, and administer numerous POTS contracts throughout the
 country. Moreover, customers would be given more services than currently available
 under the MAS contracts, and one-stop shopping, which is a popular feature of the
 POTS contracts.



                                                            Office of Inspector General 3
                                      Procurement Activities

                                       The report raised concerns that many POTS vendors who perform both system design
                                       services and also recommend equipment which they sell to the customer have a built-
                                       in conflict of interest. The contractor is in a position to propose a system that meets
                                       the customer's requirements. However, the system may have embellished capabilities
                                       which the customer may not need. Therefore, the possibility exists that the customer
                                       may be oversold equipment or features.

                                       Many of the management responsibilities for POTS have been transferred to zonal
                                       and regional offices. This affords the opportunity to reduce the existing Central Office
                                       staff and still maintain adequate oversight. By lowering overhead expenses, costs
                                       charged to customer agencies could be reduced.

                                       Prices to customers could be further reduced by modifying the method used to
                                       calculate the surcharge. The surcharge is determined after a review of each zone's
                                       forecasted expenses and sales as well as those expenses estimated to be generated by
                                       Central Office. We determined that the amount of projected sales used in the
                                       surcharge rate calculation is unrealistically low. An understated projected sales figure
                                       results in a higher surcharge rate paid by customer agencies.

                                       In our opinion, the total forecasted sales figure upon which the surcharge rate is based
                                       should be more representative of the historical average sales. By using a historical
                                       sales average method, the surcharge rate could be kept to a minimum.

                                       Finally, the POTS Management Information System (MIS) could be used more
                                       effectively. The current MIS system is available for information purposes with a
                                       menu of 27 programmed readily-available reports. However, the report noted that
                                       usage of the current MIS system for information purposes is minimal because
                                       individuals have not received materials or training on the POTS MIS. We believe that
                                       with knowledge of the capabilities of the system, individuals may use more readily
                                       available information which could help them in their POTS related duties.

                                       The March 12, 1996 report recommended that the Commissioner, Federal
                                       Telecommunications Service:

                                           Review the POTS and MAS Schedule programs to determine whether the best
                                           interests of the customer are being served by continuing each program. If the
                                           decision is to keep the POTS program, then modify the responsibilities or
                                           organization of the program office.

                                           Use the 5-year historical sales average to calculate the POTS surcharge.

                                           Have the POTS contract reviewed by the Office of General Counsel to
                                           determine if a conflict of interest exists when a vendor is both an
                                           advisor/designer and supplier of a new telecommunications system.

                                           Ensure training is provided on the use of, and access to, the POTS MIS.

                                       The Commissioner, Federal Telecommunications Service, generally agreed with the
                                       recommendations in the report. The audit is still in the resolution process.




4 Semiannual Report To The Congress
Procurement Activities

 Bribery Conviction
 On March 14, 1996, a former GSA electrician was sentenced in a U.S. District Court
 after pleading guilty to bribery charges. He was sentenced to 1 year and 1 day
 imprisonment and 2 years supervised release.

 An OIG investigation was initiated after receiving information that the electrician was
 stealing Government property. Our investigation disclosed that the employee solicited
 and accepted cash payments from a GSA lighting supply vendor. In return, the
 employee assisted the vendor in a scheme to increase the supplier's volume of
 business. The scheme involved using false companies, in addition to the legitimate
 business, and falsely billing GSA for lighting supplies under the various fictitious
 names.

 The electrician accepted $11,300 in payments and benefits. The electrician was
 terminated from Federal employment as a result of his misconduct. The vendor is
 being considered for criminal prosecution.


 Conflict of Interest Conviction
 On December 4, 1995, a former GSA equipment specialist was sentenced in a U.S.
 District Court after pleading guilty to conflict of interest charges. He was sentenced to
 3 months home confinement, ordered to pay a fine of $1,500, and placed on
 12 months probation. In addition, the equipment specialist was terminated from
 Federal employment.

 An OIG investigation was initiated after receiving information from the owner of an
 auto repair shop concerning the equipment specialist's activities in the award of GSA
 fleet contracts. The investigation disclosed that the former employee helped in
 creating several auto repair businesses and assisted in awarding GSA fleet contracts to
 those businesses. Furthermore, the employee directed repair and maintenance work
 on Government owned and leased vehicles to those businesses. The investigation also
 revealed that the employee hired and paid employees, bought supplies, and kept
 records for these businesses.




                                                              Office of Inspector General 5
                                Reviews of GSA Programs

                                       GSA is a central management agency that sets Federal policy in such arpas as
                                      Federal procurement, real property management, and telecommunications. GSA also
                                       manages diversified Government operations involving buildings management, supply
                                      facilities, real and personal property disposal and sales, data processing, and motor
                                       vehicle and travel management. In addition, GSA manages 197 accounting funds and
                                      provides cross-servicing supportfor client agencies. Our audits examine the
                                       efficiency, effectiveness, and integrity of GSA programs and operations and result in
                                       reports to management. Our internal audits program is designed to facilitate
                                       management's evaluation and improvement of control systems by identifying areas of
                                       vulnerability and including recommendations for improvement. This period, the OlG
                                      performed 67 internal reviews on Agency program areas.


Significant OIG                       Reinvention Initiatives
                                      Since December 1994, when the President asked GSA to accelerate its part in
Accomplishments                       transforming yesterday's Government into one that works better and costs less, GSA
                                      has aggressively pursued changing into a leaner, more responsive Agency. GSA
                                      manages Federal resources and spending totaling more than $60 billion. This section
                                      addresses actions taken by Agency management to reinvent GSA programs and
                                      activities, as well as evaluation efforts by the OIG.


                                      Federal Operations Review Model Activities
                                      In order to systematically evaluate the methods used to deliver Agency services, GSA
                                      management divided the Agency into 16 major business lines. Working with a private
                                      sector consultant, GSA developed the Federal Operations Review Model (FORM), a
                                      multi-step analysis to determine the most efficient and cost-effective ways to deliver
                                      business line services. In Phase I of the FORM process, GSA conducted financial
                                      analyses to identify and initially rank possible alternatives for delivering services.
                                      When Phase II is started, GSA will consider human resource, legal, public policy,
                                      regulatory, and other issues, such as possible consolidation of business line services,
                                      before making final recommendations as to the service delivery option that reflects
                                      the best value for the taxpayer.

                                      The foundation of Phase I was the development of a base case, which reflects GSA's
                                      projected cost to deliver services in Fiscal Year 1995, and the calculation of
                                      alternative service delivery options for comparison to the base case. GSA subject
                                      matter experts on each FORM team considered service delivery options that included
                                      transferring functions to other agencies, establishing Government-owned
                                      corporations, contracting with the private sector, and, in some cases, streamlining
                                      existing GSA operations. Besides advising GSA's evaluation teams regarding the
                                      FORM process, the consultant provided private sector benchmarking data for pricing
                                      privatization options for comparison to existing business line costs and attested to the
                                      reasonableness of the completed FORM reports. Also, due to the impact of overhead
                                      expenses on various option costs, GSA initiated concurrent efforts to review the
                                      allocation of Agency overhead accounts to the business lines.




6 Semiannual Report To The Congress
Reviews of GSA Programs

   OIG's Broadened Evaluation Perspective
   Consistent with objectives of the National PerfOlmance Review, the OIG applied a
   broadened evaluation perspective to the FORM process by providing both ad hoc, up-
   front advisory assistance services, as well as subsequent, independent analysis of
   FORM assessment results. OIG auditors were involved in all phases of the FORM
   analysis to ensure that business lines are analyzed using the most accurate information
   available and that the decisions reached are reasonable. OIG auditors served as
   representatives on each business line evaluation team and reviewed the propriety of
   the FORM assessment results. Our efforts in these areas included:

       Ex officio Representation on Business Line Reviews. OIG auditors served as
       ex officio advisors for each of the 16 business line evaluation teams. In this
       capacity, the representatives served as independent, analytical experts providing
       accounting counsel, pointing out potential conflicts with laws or regulations, and
       seeking clarification for systemic inconsistencies. They also served as liaison,
       keeping the OIG fully and currently informed regarding Agency actions taking
       place during the FORM process.

       Review of FORM Process Results. This period OIG audit teams reviewed the
       results of 7 business line assessments and 4 overhead studies. Our objective was
       to determine whether the results provided a reasonable, supported, and unbiased
       methodology for developing delivery options for GSA services at the lowest
       cost to the taxpayer. To ensure independence and objectivity in the review
       process, auditors that served as OIG representatives on business line
       assessments were not assigned to the audits of these areas.


   FORM Assessment Results
   Generally, our audits found that the business line evaluation teams adhered to the
   FORM process in developing options for delivering GSA services. We concluded,
   however, that the Phase I reports reviewed should not be relied upon for determining
   which option would result in the lowest cost to the taxpayer. The results should not be
   relied upon because the base case options do not reflect the most efficient
   organization structure for providing services and because the privatization options
   represent, at best, only an estimate as to the cost of obtaining services from the private
   sector. Accordingly, while our audits found that the FORM process was not biased
   toward a particular outcome, we believe the Phase I results should be qualified to
   prevent premature decisions until GSA fully considers human resource, legal, public
   policy, regulatory, and other issues in Phase II. Key information pertaining to our
   conclusions is summarized in the following table and discussed in subsequent
   paragraphs.




                                                                 Office of Inspector General 7
                                                   olG                Programs


                                                                 Key FORM Assessment Results
                                                                     Identified by the OIG

                                                                                   Areas of Concern
                                                                           Base Case                  Benchmarking Data
                                                               Most Efficient       Identified     Information     Not the
                                              Business         Organization          Need for          Not         Same as
                                          Lines Reviewed       Not Reflected       Adjustment       Validated     Program
                                        Commercial Broker            X                                  X               X
                                        Fee Developer                X                                  x               x
                                        Federal Protection                                              x               x
                                        Property Management          x                 x                x
                                        Property Disposal            x                 x                x              x
                                        Telecommunications                                              x              x
                                        Fleet Management             x                                  x

                                      In most instances, GSA's evaluation teams did a commendable job of adhering to the
                                      FORM process and calculating the cost of providing GSA's business line services.
                                      However, the base case option costs were not reflective of the most efficient
                                      organization because the FORM teams were instructed not to consider reinvention
                                      efforts to downsize and improve operations that could potentially impact upon and
                                      reduce base case service delivery costs. Nevertheless, two FORM teams included
                                      "reinvented" base case options that ranked as the lowest cost alternative in these
                                      FORM assessments. Also, despite the complexities inherent in developing the base
                                      case options, only two material adjustments were identified. In one case, support costs
                                      were understated by $13.6 million and in another the number of positions cited in the
                                      base case was understated by over 25 percent. We believe that these adjustments, as
                                      well as other concerns noted in the audit reports, should be addressed before initiating
                                      Phase II assessment efforts.

                                      Most of the private sector benchmarking data provided by the consultant contractor
                                      was based upon limited testimonial evidence gathered from telephone discussions,
                                      responses to survey questions, or confidential sources. As such, the data had not been
                                      validated to financial records to ensure reliability. Also, in several instances, the
                                      benchmark data provided was not directly comparable to the business line services
                                      provided by GSA. For example, the consultant developed private sector commission
                                      rates for the disposal of real property based upon real estate broker fees instead of
                                      auction sale fees that are lower as well as more representative of GSA's program
                                      activities. Finally, because the data provided did not represent a binding agreement to
                                      provide services, as would be required under the formal bidding requirements of
                                      OMB Circular A-76, the privatization options may not represent what the private
                                      sector would actually charge to provide comparable services. Due to these concerns,
                                      we feel the Phase I results should be qualified to prevent premature decisions. These
                                      open issues, the legal and human resource issues to be studied in Phase II, as well as
                                      other factors impacting on service delivery, aJl need to be addressed fully before
                                      sound decisions can be made.




8 Semiannual Report To The Congress
Reviews of GSA Programs

   Reviews of the Agency's overhead accounts revealed that some adjustments should
   be considered before initiating further actions, but did not disclose any material
   errors. Generally, the overhead projections were reasonable and supported with
   historical data, and allocations to the business lines were reasonable. Our reviews did
   not consider overhead reduction initiatives being pursued by the Agency that are
   external to the FORM assessment process.


   Other Factors Impacting Service Delivery Options
    We identified a number of critical issues that could impact upon the base case
    calculations as well as the costs of other service delivery options identified for the
    various business lines. In large part, these factors recognize the need to clarify the
  . applicability of identified alternatives, existing regulations, and implementation costs
    as well as conditions that are specific to particular business lines. Additionally, where
    privatization is pursued as an option, specific procedures will have to be adhered to
    for contracting out Government activities. Information regarding these areas follows:

       Becoming a wholly owned Government corporation was a lower cost option
       identified in several of the business line assessments. However, OMB,
       recognizing that the guidelines for forming such an entity were unclear, has
       issued specifications for creating Government corporations when an
       organization cannot operate effectively or efficiently without changing its
       current structure. This determination has not been made for GSA's business line
       activities and, when considered, may eliminate this alternative as a potential
       option.

       The impact of existing Governmental regulations and the applicability upon
       privatized service delivery options has to be clarified. Existing requirements
       may apply to privatized activities-increasing alternative option costs; or existing
       requirements may be eliminated by legislative actions-lowering base case costs.

       Implementation costs for the various service delivery options have not been
       determined and could have a substantial impact upon options. Privatization and
       delegation options may require significant reductions-in-force that are very
       costly. In addition, start up costs for these options have not been quantified and
       could be considerable.

       Other items that should be considered include changes in the mandatory use
       status of a business line, implementation of new laws, the impact of
       Governmentwide downsizing actions, the Government's market leverage
       opportunities, and adoption of private sector techniques.

       OMB Circular A-76 outlines Federal procedures for determining whether
       activities should be performed by outsourcing to the private sector or by in-
       house Government personnel. In the event the FORM process concludes that
       activities should be outsourced, GSA activities will undergo a formal cost
       comparison which entails developing a work statement and obtaining formal
       bids from the private sector. (A-76 has itself been undergoing review by OMB
       and changes to its requirements may further affect this process.)




                                                                  Office of Inspector General 9
                                Reviews of GSA Programs

                                       Overall, the FORM process has been and should continue to be instrumental in
                                       improving the delivery and reducing the cost of GSA's services. The development of
                                       base case options for each of the business lines has revealed the need for better
                                       management information on program costs, which includes improved information
                                       about the overhead expense burden placed upon business lines by support activities.
                                       To a larger extent, however, Phase I of the FORM process has shown that much
                                       remains to be done before a decision can be reached as to which delivery options
                                       provide the best value for the taxpayer. In the coming months, the OIG plans to
                                       continue in its efforts to assist GSA management as the Agency completes the initial
                                       phases of the FORM process and moves toward implementation of selected
                                       alternatives in an effort to make GSA a more responsive and cost effective provider of
                                       business line services.


                                       Stock Program Management Information System
                                       A central function of GSA is to procure and store necessary supplies and equipment
                                       for civilian Federal agencies and the Department of Defense. Under its stock program,
                                       GSA maintains adequate quantities of approximately 19,000 commonly used items.
                                       The Agency stores stock in large distribution facilities and fills customer agency
                                       orders as they are received. In Fiscal Year 1995, the stock program sold $932 million
                                       worth of stock and maintained an inventory of approximately $215 million.

                                       We performed a review to determine whether stock program managers receive
                                       adequate information to perform their functions and achieve mission goals. Inventory
                                       managers rely on the FSS-19 computer system for various information on stock
                                       levels, customer demand, delivery time frames, and vendor performance. During the
                                       review, we analyzed the inventory information needed by managers and quality
                                       assurance (QA) staff and the information provided by GSA's computer systems. We
                                       also reviewed the systems and methods used by comparable private sector companies
                                       and gathered additional information from discussions with Agency officials.

                                       We found that the FSS-19 computer system provides a large amount of helpful
                                       information to managers. However, the review revealed that the data generated by
                                       FSS-19 on projected customer demand and delivery time frames could be more
                                       accurate. In an analysis of 528 items, we found that computerized demand projections
                                       were on average 80 percent different than actual demand. Also, delivery time frame
                                       projections varied an average of 57 percent above or below actual delivery time.
                                       These differences can have a dramatic effect on operations, potentially causing either
                                       overstocking or shortages. In addition, demand and time frame inaccuracies require
                                       managers to spend time analyzing and correcting errors, and also adversely affect the
                                       stock program by increasing inventory storage costs by maintaining more stock than
                                       necessary or decreasing customer satisfaction by not maintaining sufficient stock to
                                       meet customer demand.

                                       These information weaknesses will have an increasingly significant effect on GSA's
                                       efforts to maintain optimal stock levels as Federal Government downsizing reduces
                                       the number of experienced inventory managers. Inexperienced managers are
                                       replacing those who have left, and the experienced managers who remain are facing
                                       an increasing workload. This trend will increase the reliance on computerized
                                       projections.



10 Semiannual Report To The Congress
Reviews of GSA                          ograms

   We met with officials from two software companies who demonstrated new computer
   software that could significantly improve inventory management decisions. The two
   applications use complex mathematical formulas to analyze the trends and seasonal
   demand of stock during the previous year or beyond to provide reasonably accurate
   projections of future demand. These applications can provide varying levels of
   accuracy and inventory planning features, depending on customers' needs.

   In meetings with private sector inventory managers, we learned that they specify the
   exact delivery date in their contracts, whereas GSA allows vendors to deliver any
   time within a certain time frame. Company officials told us that they are able to
   maintain stable delivery time frames as a result of long-term relationships with their
   vendors. With this approach, there is little doubt what time frames will be, since
   company officials told us that they do not tolerate vendors not meeting delivery dates
   because it directly affects their inventory costs and ability to meet customer demand.
   GSA managers do not have these beneficial long-term arrangements with suppliers
   who are replaced on a frequent basis.

   Also, FSS-19 data on the timeliness of vendors' deliveries or the number of product
   quality complaints are inaccurate and unreliable. Contracting officers and QA
   specialists use this data to help them evaluate shipment timeliness, investigate and
   resolve customer complaints, perform follow-up inspections, and determine whether
   vendors' performance warrants another contract award. These data weaknesses may
   cause GSA to continue to contract with vendors who do not deliver on time or provide
   quality products. In a 1993 report, the General Accounting Office (GAO) disclosed
   that the Agency was continuing to award contracts to a number of vendors with
   histories of poor performance on earlier contracts in which they failed to meet
   delivery time frames or product quality requirements. GAO attributed this situation to
   a lack of data on vendors' past performance.

   Finally, GSA lacks a centralized information system to ensure that complaint
   information is available to all QA specialists. The information is manually distributed,
   with no assurance that all specialists receive it. The limited availability of
   performance data to officials hampers their ability to assess a vendor's performance to
   determine if it should be awarded another contract. GSA is planning to centralize all
   complaint information on an on-line system (Quality and Contract Management
   Information System) that would be accessible to all QA specialists. Such a system
   could help QA specialists focus their efforts and alert them to more closely inspect
   shipments from problem suppliers.

   The March 25, 1996 report recommended that the Commissioner, Federal Supply
   Service:

       Analyze ways to improve the accuracy and reliability of computerized demand
       projections through the use of other demand forecasting software applications.

       Analyze ways to improve the accuracy and reliability of computerized delivery
       time frame projections.




                                                               Office of Inspector General 11
                                       views of GSA Programs

                                           Evaluate the computer programs used to calculate the timeliness of vendor
                                           shipments and determine how they can reflect the vendor's actual performance
                                           compared to contract requirements.

                                           Continue to develop the Quality and Contract Management Information System.

                                       The Commissioner generally agreed with the recommendations in the report. The audit
                                       is still in the resolution process.


                                       Environmental Services Pilot Program
                                       The Environmental Services Pilot Program was developed in one GSA region as a
                                       business opportunity to provide various environmental services to all Federal agencies
                                       at a reasonable price and with a high level of customer service. The first five contracts,
                                       valued at $2.8 million, were developed to address agencies' recurring needs for
                                       hazardous waste transportation and disposal. The program could be expanded to
                                       include additional services, such as training in hazardous waste management and
                                       minimization assessments, environmental plan development, and laboratory analysis
                                       services.

                                       The OIG evaluated the program and determined that the program is viable and could be
                                       expanded in the pilot region, as well as nationwide, provided that the database being
                                       developed to monitor program operations and cost effectiveness is implemented. A
                                       customer satisfaction survey conducted by our office in the pilot region found that
                                       current customers are pleased with the services provided and can save resources they
                                       would otherwise expend to perform contracting and quality assurance functions.
                                       Additionally, GSA has developed and is adhering to a liability mitigation strategy.
                                       However, we could not determine the cost effectiveness of the program because the
                                       database is still under development.

                                       During the course of the audit, management responded to our suggestions to improve
                                       the program by: initiating work on a database to monitor the program and measure
                                       ongoing costs; initiating work on a more effective marketing approach to target
                                       potential customers; establishing requirements for order files to ensure adequate
                                       supporting documentation; and establishing procedures that require the positive
                                       confirmation of the receipt of hazardous waste services and compliance with applicable
                                       laws before invoice payment.

                                       The report is advisory in nature and does not contain formal recommendations.


                                       Background Checks of Child Care Center Employees
                                       GSA provides guidance, assistance, and oversight for child care centers operating in
                                       Federal facilities. Public Law (P.L.) 101-647 (42 U.S.c. 13041) requires criminal
                                       history background checks for all employees working in Federal child care facilities to
                                       ensure that centers employ only individuals without criminal records. Also, the law
                                       requires that while employees are pending clearance, they be supervised by employees
                                       who have been cleared. Currently, there are 102 child care centers operating in GSA-
                                       controlled space in all regions.




12 Semiannual Report To The Congress
Reviews of GSA Programs

   During the last reporting period, we issued an interim report concerning the
   background check process. (See Semiannual Report to the Congress, April 1, 1995-
   September 30,1995, page 12.) The review, which included a sample of centers in
   4 of 11 GSA regions, revealed that the Agency was in substantial noncompliance with
   P.L. 101-647.

   This period, we completed our evaluation of GSA's practices over criminal history
   background checks for child care center employees. The report showed that many
   centers are failing to comply with P.L. 101-647. At 13 of 39 child care centers
   reviewed, none of the employees had completed criminal history background checks.
   At 12 additional centers, less than half of the employees had completed background
   checks. The review also revealed that new centers opening in GSA-operated space
   typically have none of their employees cleared, increasing the risk that children will
   be cared for by employees with criminal records. A key provision in all license
   agreements between GSA and child care providers requires that all child care center
   employees be cleared or have direct supervision by someone who is cleared. We
   believe that a significant percentage of employees at each center should have
   background checks completed so that they will be available to supervise those with
   pending background checks. However, at the time of our review, GSA had no written
   guidelines or procedures addressing criminal history background checks when a new
   center is opened.

   We determined that the average time to process background checks is 122 days and
   believe this is excessive. GSA has very little control over the time required for child
   care providers to submit documentation, the time to process the requests for criminal
   histories from the State repositories, or the time required for the Federal Bureau of
   Investigation to process name checks and fingerprints. However, some delays are
   controllable by the Agency. We estimate that the background check process should
   take no more than 30 days, starting from the time the documentation is completed by
   the employee, to the time the results are transmitted to the child care center by the
   Federal Protective Service (FPS). This does not take into consideration the time to
   request and receive the results of criminal history information from various State
   repositories which ranges from 1 to 60 days.

   The report showed that some of the problems associated with the completion of the
   background checks were due to insufficient coordination between GSA activities and
   child care centers. The activities involved in the process include child care providers,
   regional child care coordinators, regional FPS officials, and headquarters officials.
   We believe that the child care coordinator in each region has the primary
   responsibility to ensure that the centers are operating in accordance with current laws
   and regulations. The coordinators should have assurance that all child care
   employees, in the centers for which they have responsibility, have completed
   background checks, or that the background checks have been initiated, and that they
   are being supervised by individuals with appropriate clearance pending completion of
   the check.

   Also, 14 of the 102 child care centers are operating in GSA-controlled space without
   properly executed license agreements. As a result, these centers are occupying GSA
   controlled space without proper authorization. The license agreements give the
   Agency the authority to direct and regulate child care centers. Without the fully


                                                               Office of Inspector General 13
                                Reviews of GSA Programs

                                       executed license agreements, the Agency has little power to ensure compliance with
                                       current laws and regulations, including the legally required criminal history
                                       background checks.

                                       We also believe the intent of P.L. 101-647 is to require that prospective employees
                                       provide their current and all former residences on the employment application. The
                                       current version of the Statement of Personal History form used to provide the
                                       information required for criminal history background checks only requests residence
                                       information for the past 3 years. The previous version requested residence
                                       information for the past 10 years. In discussions with GSA officials, they indicated
                                       that the form would be revised. They believed that residence data for the most recent
                                       10 years would be sufficient but were unsure if this would satisfy the intent of
                                       P.L. 101-647. This situation requires clarification.

                                       GSA has recognized that it has been operating in substantial noncompliance with
                                       P.L. 101-647. Management officials advised the OIG that the issue has been
                                       presented to the Management Control Oversight Council, and, as required by the
                                       Federal Managers' Financial Integrity Act, it was reported as a material weakness.

                                       The March 27, 1996 report recommended that the Associate Administrator, Office of
                                       Policy, Planning and Evaluation:

                                           Promulgate the policies and guidelines covering the clearance process for child
                                           care centers in Federally-controlled space at the earliest time possible.

                                       In addition, we recommended that the Commissioner, Public Buildings Service:

                                           Ensure that child care centers comply with P.L. 101-647 and assign
                                           responsibility for overseeing and accomplishing the clearance process for child
                                           care center personnel.

                                           Establish a time standard for processing background checks, including a follow-
                                           up system.

                                           Obtain fully executed license agreements prior to the operation of child care
                                           centers in GSA-controlled space.

                                           Establish guidelines as to how new child care centers might operate, should an
                                           insufficient number of child care center personnel be cleared ahead of
                                           commencement of operations.

                                       The Associate Administrator and the Commissioner generally agreed with the
                                       recommendations in the report. The audit is still in the resolution process.


                                       Software Initiative
                                       The Public Buildings Service (PBS) recently decided to pursue the purchase of real
                                       estate and space management software called the Permanent Record of Managed
                                       Property Transactions (PROMPT) to replace existing information system
                                       applications. In November 1994, PBS initiated a pilot project to examine PROMPT



14 Semiannual Report To The Congress
Reviews of GSA Programs

   and assess its applicability. PBS issued a report on the results of the pilot and
   recommended implementation of PROMPT in October 1995. In February 1996, GSA's
   Chief Information Officer (CIO) granted PBS a delegation of procurement authority to
   acquire PROMPT for an amount not to exceed $17,797,867.

   We have concerns regarding the procurement risks associated with PROMPT, its
   adequacy in meeting the PBS's needs, and the need for coordination with other
   software initiatives which we believe PBS should consider before implementing
   PROMPT. Many of these considerations were discussed in the October 1995 report on
   the pilot.

   We are concerned that continuing adequate software support may not be available.
   PROMPT is a non-commercial software product developed for use by a private
   corporation and was not intended to be commercially marketed. We believe PBS needs
   to consider the risk that the vendor may not have adequate incentive to continue to
   support the software at a competitive price and the extent to which PBS will be
   exclusively dependent upon the supplier for maintenance of the software configuration.
   In addition, extensive modifications may cause responsibility for successful
   implementation and maintenance to shift from the supplier to PBS.

   PROMPT will require extensive modifications to meet PBS's needs. An August 1994
   study prepared for PBS recommended that a more detailed assessment be made of the
   specifically recommended modifications to establish the parameters, performance
   measures, and limits of each. We believe that this step should include a cost estimate of
   the modifications as well. Since the PROMPT pilot report does not address these costs,
   PBS needs to determine the cost of customizing PROMPT to meet the needs of PBS's
   business lines and also to interface with other systems and applications within PBS and
   GSA.

   Also, we believe that PBS needs to more fully research other available software. The
   August 1994 study discussed six software programs that might meet PBS's real estate
   information management needs. PROMPT was not among the six included in the report
   which encouraged PBS to continue the research process. PBS officials acknowledged
   that the report is outdated and that additional research later revealed other products.
   However, these have been eliminated from further consideration even though the
   documentation supporting these evaluation decisions lacked sufficient detail to justify
   these actions.

   We do not believe that PBS's documentation of the extent of software research
   performed supports its pursuit of a sale source procurement action. PROMPT may be
   the best software solution for PBS, but without the benefit of continued product
   analysis, including market research and testing and a well-developed requirements
   statement, PBS has a weakened basis for its current sole source direction. Further
   research efforts should focus on PBS's requirements versus a particular product or
   products.

   We noted that PBS needs to more fully define its information system needs and
   requirements. However, we do not believe that a complete determination is feasible at
   this time because newly established PBS business lines have yet to develop detailed
   data requirements based on their reengineering efforts and the various software pilots


                                                              Office of Inspector General 15
                                Reviews of GSA Programs

                                       that have been conducted. Because PROMPT will affect relevant business lines, we
                                       believe the evaluation of PROMPT software needs to include an examination of the
                                       specific information needs of business lines as well as consider the information
                                       processing needs of headquarters PBS.

                                       The PBS CTO is concurrently developing an Oil-line access vehicle called PLUS+
                                       which appears to provide users with many of the same benefits as PROMPT, which
                                       leads us to believe that the procurement and implementation of PROMPT or any other
                                       software may be duplicative. It appears that PBS is spending resources on two
                                       technologies that provide the same basic benefits. For this reason, we believe it is
                                       essential for PBS to compare the costs and benefits of PROMPT with PLUS+.

                                       Due to our concerns, we forwarded a copy of our report to the GSA CIO. Based on
                                       our understanding of the authority and responsibilities of the CIO, we suggested that
                                       the office ensure that PROMPT represents the best alternative for meeting PBS's
                                       information system needs.

                                       The February 26, 1996 report is interim in nature, and the OIG plans to perform a
                                       follow-up review of PBS's progress.


                                       Aircraft Management
                                       Office of Management and Budget (OMB) Circular A-126 assigned to GSA the
                                       responsibility for assisting Federal civilian agencies in efforts to improve the
                                       management and cost effectiveness of their aircraft operations. To further these goals,
                                       GSA established the Interagency Committee for Aviation Policy (ICAP) to provide
                                       advice and guidance on the development of aircraft policies and information
                                       requirements. The ICAP is currently composed of a steering group and five
                                       subcommittees and representatives from 17 agencies which own, operate, and/or
                                       charter/rent aircraft. At the time of our review, agencies reported owning and/or
                                       operating over 1,400 aircraft at an annual cost in excess of $1 billion. We looked at
                                       the program to assess how well GSA was carrying out its assigned tasks.

                                       While GSA and the ICAP have taken several positive steps forward, many initiatives
                                       remain unfulfilled. The ICAP has been a positive influence on the agencies' aircraft
                                       operations. Noteworthy accomplishments include the development of a guide to assist
                                       agencies in aircraft program operations, a manual to aid in maintenance operations
                                       inspections, and a guide to assist agencies in making appraisals of their overall
                                       aviation operations, training, and facilities. However, a lack of funding and staffing
                                       has delayed other ICAP initiatives, including the development of the Demand
                                       Logistics Management System (DLMS) which is designed to assist agencies in
                                       scheduling flights, analyzing flight usage, assessing future aircraft needs, and meeting
                                       reporting responsibilities under existing OMB and GSA requirements. Because ICAP
                                       receives no direct funding from its agencies, GSA has been providing the primary
                                       resources for DLMS development; however, GSA lacks the internal resources or
                                       technical expertise required to fully support DLMS and many other projects. These
                                       conditions are likely to continue unless additional resources can be obtained to
                                       remedy the situation.




16 Semiannual Report To The Congress
Reviews of GSA Programs

   GSA's other major responsibility is to maintain a Governmentwide management
   information system known as the Federal A viation Management Information System
   (FAMIS) to collect, analyze, and report data related to the Federal civilian agencies'
   aircraft activities. Since 1990, GSA has made several modifications to the system to
   improve the data reporting process. During our review, several leAP agencies stated
   that GSA offered technical assistance regarding the installation and operation of the
   FAMIS. These same agencies, however, also indicated that the FAMIS software and
   related users' manuals are not user friendly and that they have encountered numerous
   installation and operational problems.

   Our review revealed that centralized aircraft data continues to be inaccurate,
   incomplete, and of questionable integrity or value for analysis, decision-making, or
   budgetary purposes. Several agencies reported in their survey responses that GSA
   made changes to their aircraft data without their input or prior approval and also made
   modifications to the FAMIS without providing them revised instructions. In addition,
   some agencies informed us that GSA did not always make the changes to their aircraft
   data reports as requested. Also, GSA lacks the capability or authority to verify most of
   the aircraft data currently reported by the agencies. We found that GSA only can
   verify 3 of the 32 data fields currently included on the FAMIS aircraft cost and
   utilization reports. Improved data accuracy would greatly enhance the utility of the
   information being collected.

   GSA collects a great deal of information about agency aircraft operations; however,
   we found that it spends little time analyzing the data and sharing the results with the
   agencies. We believe that if the Agency performed useful data analyses and shared
   the results with the agencies, it would demonstrate to the agencies the usefulness and
   potential benefits to be derived from reporting reliable and timely aircraft data.

   This program area has been reported under the Federal Managers' Financial Integrity
   Act as a high risk area during Fiscal Years 1991,1992,1993, and 1994. Our review
   disclosed that adequate controls were not established and maintained over processing
   and recording procedures or systems and program documentation. We also found that
   GSA had not performed periodic verification in changes made in existing procedures
   or existing systems.

   In the March 27, 1996 report, we recommended that the Associate Administrator,
   Office of Policy, Planning and Evaluation:

       Work with leAP and OMB to obtain the funding and staffing necessary to
       accomplish program initiatives.

       Ensure that leAP, through its member agencies, receives the technical expertise
       and resources necessary to achieve its program initiatives.

       With the reAP, compare the DLMS with other commercially available
       alternatives and implement the most cost effective flight logistics system.

       Work with leAP and OMB to identify the aircraft data necessary for making
       prudent aircraft management and budgetary decisions. OMB and GSA should
       then redefine reporting requirements and modify the FAMIS.


                                                               Office of Inspector General 17
                                Reviews of GSA Programs

                                           Establish time frames and procedures giving the submitting agencies the
                                           opportunity to review data before GSA issues the final reports. GSA should also
                                           follow up on questionable data.

                                       The Associate Administrator generally agreed with the recommendations in the
                                       report. The audit is still in the resolution process.


                                       Building Security
                                       In the aftermath of the Oklahoma City bombing, GSA and other Federal agencies
                                       have taken several positive steps toward enhancing the level of physical security plans
                                       nationwide. The President directed the Department of Justice to lead a task force to
                                       assess the vulnerability of Federal buildings in the United States to acts of terrorism
                                       and other forms of violence. The study does not focus, however, on how the use of
                                       certain design and construction techniques increase the risk of exposure, while others
                                       serve to reduce the destruction incurred by hostile attack.

                                       In the 1980s, the Federal Construction Council (FCC), of which GSA is a member,
                                       asked the National Research Council to establish a committee of experts to develop
                                       guidance for Federal agencies for improving the security of persons, buildings, and
                                       sites. The committee's findings were presented in a 1988 report that describes how
                                       specific construction techniques and the employment of security measures can deter
                                       acts of terrorism and lessen the effects of external blasts. Because the report directly
                                       addresses this integrated approach to security, we raised this issue to ensure that the
                                       report's concepts and ideas are given due consideration in the Agency's ongoing
                                       process to enhance its security program.

                                       We conducted a review and determined that GSA had not materially changed its
                                       construction guidelines and criteria as a result of the 1988 report. Moreover, Agency
                                       officials responsible for site security plans had not been aware of the report until last
                                       year. We also performed a limited survey of buildings constructed in the 1990s which
                                       found many had design features making them more vulnerable to hostile actions.

                                       GSA officials have indicated that there is now a closer working relationship between
                                       those groups responsible for design and construction of buildings and those who are
                                       responsible for implementing site security. Also, interagency task forces are setting
                                       new standards which define security standards for new construction and major
                                       building alteration projects. By taking this positive approach that more closely
                                       integrates the construction and site security programs, the overall security of Federal
                                       facilities will be enhanced.

                                       The report is advisory in nature and does not contain formal recommendations.


                                       Value Engineering
                                       The Office of Management and Budget (OMB) Circular A-13l, "Value Engineering,"
                                       defines value engineering (VE) as "an organized effort directed at analyzing the
                                       functions of systems, equipment, facilities, services, and supplies for the purpose of
                                       achieving the essential functions at the lowest life-cycle cost consistent with required
                                       performance, reliability, quality, and safety." The circular directs Federal agencies to



18 Semiannual Report To The Congress
Reviews of GSA Programs

   use VE "where appropriate" and leaves to their discretion the determination of where
   VE would be useful. We assessed GSA's VE program to determine how well the
   Agency has implemented OMB policies and procedures regarding VE and its
   usefulness to the Agency.

   Our review determined that even though the GSA total VE cost savings and cost
   avoidances reported in Fiscal Year (FY) 1993 and FY 1994 were supported, these
   savings were estimates and general indicators ofVE's successful application and not
   precise figures. In addition, it was not always clear whether these savings were
   attributable to VE or other cost cutting measures.

   VE implementation has varied throughout GSA. The Public Buildings Service (PBS)
   has made the most extensive use of VE and achieved notable results. In FY 1993, PBS
   reported cost avoidances of $32 million, and in FY 1994, $6 million. PBS successfully
   applied VE during the design phase of construction projects to seek more cost effective
   designs and PBS personnel found VE to be an aid in achieving this goal. However, PBS
   has had much less success in applying VE during the construction phase of projects
   because its use often delays construction progress.

   Also, PBS has established a requirement that only those funds from cost savings which
   were returned to headquarters can be counted as VE savings. We believe that this
   reporting restriction may hamper VE use because savings applied elsewhere within a
   region cannot be counted as reportable savings.

   The Federal Supply Service (FSS) reported minimal use of VE. The total cost
   avoidances reported for FY 1993 and FY 1994, both for the same proposals to change
   the material used to manufacture flashlights, were $108,610 and $37,000, respectively.
   Although FSS had outlined objectives that would indicate a wide range of applications
   for VE, the only application FSS has used is to include a standard VE clause required
   by the Federal Acquisition Regulation (FAR) which allows contractors to submit
   change proposals.

   The Information Technology Service and the Federal Telecommunications Service
   have not developed VE programs or used VE. Representatives of these services stated
   that they did not believe VE would benefit their operations, and annually reported this.
   However, they expressed a willingness to use VE if those espousing the process
   provided examples of how it could be used, or probable areas in which they could
   expect to see positive results.

   OMB Circular A-131 directed agencies to report annually to OMB savings that have
   resulted from using VE. Agencies are to provide detailed information on the life-cycle
   cost savings and avoidances realized from both in-house and contracted studies as well
   as the agencies' major VE projects. GSA officials stated that such detailed reporting
   requirements not only increase the reporting burden, but increase errors in reporting as
   well.

   While greater efforts to further mandate the use of VE, or the imposition of sanctions
   for non-use, would help ensure greater compliance, our observation is that this
   approach would be ineffective and increase costs, with no significant increase in
   benefits. GSA has used VE most productively when it needed to find savings and saw


                                                               Office of Inspector General 19
                                Reviews of G                          Programs

                                       VE as an effective way to achieve this goal. We observed that the benefits of VE
                                       increased when top management became committed to its use. Future use of VE could
                                       be influenced by publicizing its successes and encouraging its application by all
                                       components of the Agency.

                                       The March 25,1996 report recommended that thc Deputy Associate Administrator
                                       for Acquisition Policy:

                                           Ensure that those areas which can most benefit from VE are utilizing it, but
                                           those areas which cannot are not expending resources on it.

                                           Publicize successes to help promote the VE program.

                                           Work with OMB to simplify VE reporting requirements.

                                           Work with PBS to develop the means for reporting reprogrammed savings as
                                           well as savings returned to headquarters.

                                       The Deputy Associate Administrator agreed with the recommendations in the report.
                                       The audit is still in the resolution process.


                                       Federal Telecommunications Service
                                       The Federal Telecommunications Service eFTS), formerly known as the Office of
                                       FTS2000, provides Federal agencies with long-distance telecommunications services
                                       through two vendors. It has been characterized as the largest private telecommuni-
                                       cations system in the world, as well as the largest non-aerospace civilian-agency
                                       procurement.

                                       The OIG continued to review important aspects of FTS. Previous Semiannual Reports
                                       to the Congress have reported concerns of the OIG with contract changes, overall
                                       administrative practices, and State and local taxes imposed on FTS services. The two
                                       audits we conducted this period focused on billings and disputed charges.

                                           Verification of Billings

                                           The OIG evaluated the Agency's processes to account for and to validate GSA's
                                           FTS billings. GSA incurs approximately $8.7 million annually in direct long-
                                           distance telecommunications services. Over 70 percent of these charges are for
                                           usage type services which are based on consumption and include basic long-
                                           distance voice service, and data and video transmission services. The Agency
                                           also incurs charges for non-usage services, which include one-time costs
                                           (installation or service initiation) and recurring costs associated with dedicated
                                           circuits and other specialized types of service, such as call screening and agency
                                           recorded messages.

                                           United States Code, Title 31, Section 1348 provides that appropriations of an
                                           agency are available for long-distance service if required for official business
                                           and the voucher to pay for the call is sworn to by the head of the agency. To
                                           implement this legal requirement, the General Accounting Office requires that



20 Semiannual Report To The Congress
Reviews of GSA Programs

    " ... the user agencies must verify the propriety of the reported usage, including
    that the calls are necessary in the interest of the government." In accordance
    with GSA's Delegation of Authority Manual, top Agency officials must ensure
    that their organization's portions of the monthly call charges are accurate and
    for official Government purposes.

    We found that charges for FTS long-distance services are properly accounted
    for by the Agency. In addition, GSA, for the most part, is properly verifying the
    accuracy and propriety of both the non-usage billing charges and the data and
    video transmission portion of the usage charges. GSA is also verifying that its
    long-distance voice usage charges represent valid telephone calls made by
    Agency employees.

    However, prior to January 1996, GSA was not able to ensure that voice usage
    calls were for official Government business, as required by Federal law, because
    it did not have the full computer capability to perform such a verification.
    Federal guidelines assume that calls are for official business if they are
    completed to other Federal agencies. For all other calls, GSA must either
    perform a verification of its monthly call detail report, or implement "other"
    procedures to ensure the official business nature of its long-distance charges.
    Also, for calls originating from locations where call detail information is not
    available, the auditors found little or no evidence that GSA was taking the
    "other" measures required to ensure its long-distance calls were for official
    business use.

    Subsequent to the completion of our review, GSA has acquired the computer
    capability to provide for verification of the call detail report. It also has
    developed draft regulations that will require top Agency officials to verify their
    organization's portions of the call detail report.

    The audit also found that one office at GSA verified the same non-usage charges
    portion of the FTS billing as had already been verified by another GSA office.
    Similar reviews are being pelformed by GSA's other customer agencies. Such
    duplication is both unnecessary and an inefficient use of resources that
    otherwise could be deployed in other Governmental operations.

    In the March 29, 1996 report, we recommended that the Associate
    Administrator for Management Services and Human Resources:

    • Implement, as soon as possible, the draft regulations for performing
      verification of the call detail report.

    • Revise the current draft regulations to recognize the shared responsibility
      delegated to top Agency officials for meeting the legal requirement of GSA's
      long-distance voice usage, and define the specific roles and duties of each in
      carrying out this verification effort.

    We also recommended that the Commissioner, Federal Telecommunications
    Service, select the most effective and efficient means to accomplish the
    verification of FTS non-usage charges while eliminating duplication.


                                                           Office of Inspector General 21
                                Reviews of GSA Programs

                                       The Associate Administrator for Management Services and Human Resources
                                       generally agreed with the recommendations. The Commissioner, Federal
                                       Telecommunications Service, agreed with the recommendation. The report is
                                       still in the resolution process.

                                       Telecommunications Charges

                                       We performed an evaluation of telecommunications service order disputes with
                                       one vendor to determine if GSA has adequate policies and procedures to settle
                                       matters promptly.

                                       We found that GSA was identifying disputes in a timely manner and
                                       withholding payments for disputed telecommunications charges from the
                                       vendor. In addition, GSA and contractor officials have been working for the past
                                       year to identify and correct underlying causes of billing disputes, which should
                                       reduce their occurrence. However, these actions have not resolved the backlog
                                       of disputed charges, which now stand at $2.1 million. This amount includes
                                       almost $762,000 which had been paid to the contractor because the affected
                                       disputes occurred prior to a procedural change for withholding payments until
                                       resolution of the disputed charges.

                                       The existing contract provides few mechanisms for the timely resolution of
                                       disputed charges. The contract does not establish time frames for the resolution
                                       of disputes or consequences for not promptly settling disputes. GSA's continued
                                       inability to quickly settle disputed charges not only costs the Agency more to
                                       administer the backlog, but prevents its customers from receiving prompt credit
                                       for billing disputes that could be resolved in the Government's favor. Further, if
                                       GSA permits an increased backlog, it may be limiting its settlement options.

                                       The March 20, 1996 report recommended that the Commissioner, Federal
                                       Telecommunications Service:

                                       • Coordinate with the vendor to improve the process for settling future disputed
                                         charges in a timely manner.

                                       • Establish a process with time frames to settle the backlogged disputed
                                         charges.

                                       • Withhold from GSA's future payments to the vendor the $762,000 in disputed
                                         charges which have not yet been resolved.

                                       • Assure that future telecommunications contracts require the contractor to meet
                                         established time frames for settling disputed charges or face remedial
                                         measures for noncompliance.

                                       • Assure that future contracts require each service order and each dispute to
                                         have a unique identifier to expedite the identifying and tracking of billing
                                         disputes.




22 Semiannual Report To The Congress
Reviews of GSA Programs

       The Commissioner agreed with recommendations in the report. The audit is still
       in the resolution process.


   Pricing Items in the Stock Program
   In addition to our review on the stock program management information system, see
   page 10, we performed another review concerning the program. We evaluated the
   process GSA uses to price items in the program and determined that the pricing
   procedure is generally being performed in an efficient and effective manner.
   However, the process could be improved if the automated supply system had better
   item demand forecasting and if there was adequate personnel backup for certain
   portions of the pricing procedures.

   We determined that the demand data generated by the automated system is inadequate
   for forecasting demand. This data is used in the development of item prices.
   Forecasting future demand is computed by using the last month's demand. GSA
   personnel advised us that these computation techniques are not a good tool for
   forecasting long-term item demand because they do not account for seasonal
   fluctuations or long-term trends.

   The need for improved automated demand forecasting techniques for item pricing is
   becoming more significant because of recent downsizing in the Agency. Commodity
   centers have lost experienced inventory managers because of early retirements,
   buyouts, and transfers to other jobs. Many of the new inventory managers have no
   prior inventory management background having been hired from within GSA from
   clerical and administrative positions due to hiring restrictions. As a result, many of the
   new inventory managers rely primarily on the demand data in the automated system,
   rather than perfOlming detailed demand research/analysis, to verify the accuracy of
   the demand in the system.

   We also determined that GSA needs to ensure that there is adequate experienced staff
   for certain portions of the pricing process to avoid possible pricing delays and other
   problems in the future. For several years, two Central Office individuals have been
   responsible for performing crucial aspects of the pricing process. At the time of our
   review, GSA had no backup persons to perform the functions of these two
   individuals. Possible remedies for this problem include training backup personnel
   regarding cost allocation procedures, and/or developing instructional material
   discussing the pricing procedures. Also, we believe that the Agency's accounting
   system should be modified to automatically provide much of the cost data that is now
   developed manually by one of the individuals.

   In addition, the report indicated that, at the beginning of the pricing process for the
   fiscal year, GSA Central Office requests the commodity centers to submit sales
   projections for the Stock program. After receipt of the sales projections, Central
   Office transmits a pricing program database to each center showing the demand and
   unit cost for each item for which the center is responsible. Commodity center
   personnel perform detailed analyses of the unit costs and demand for their items and
   update the amounts in the database, if necessary. The centers use the results of the
   analyses to develop sales forecasts for individual items.




                                                                Office of Inspector General 23
                                       views of GSA Programs

                                       Before the centers complete their analyses, GSA Central Office officials hold a series
                                       of meetings to develop a nationwide annual business forecast which includes
                                       estimated sales for each commodity center. The meetings result in the establishment
                                       of sales forecasts for each center. However, representatives of the centers are not
                                       present at the meetings. Also, if the forecasts established at the Central Office
                                       meetings vary from the forecasts developed by the centers' based on their analyses,
                                       the centers' forecasts are adjusted. Based on our review of this portion of the pricing
                                       process, we concluded that the commodity centers' detailed cost/demand analyses
                                       should be used as the primary source in developing the sales forecasts for the centers,
                                       and representatives of the commodity centers should be present at the Central Office
                                       meetings.

                                       The report is advisory in nature and does not contain formal recommendations.


                                       Flexiplace Telecommuting Center Program
                                       The U.S. Senate Committee on Appropriations, Subcommittee on Treasury, Postal
                                       Service, and General Government, and the U.S. House of Representatives Committee
                                       on Appropriations, Subcommittee on Treasury, Postal Service, and General
                                       Government requested a review of the Flexiplace Telecommuting Center program.
                                       Specifically, the OIG was asked to examine the adequacy of methods used by
                                       agencies to account for employee time and attendance when working at the
                                       telecommuting centers, and the process used by GSA to determine the costs and
                                       benefits of additional centers.

                                       A telecommuting center is a facility that provides an alternate office setting where
                                       employees can perfonn work assignments without having to travel the long distance
                                       to their usual place of business. In September 1992, Congress authorized GSA to
                                       establish a pilot program to create centers for Federal employees who work in the
                                       Washington, D.C. area and reside in the more outlying communities ofthe region.

                                       In 1993, the Agency began creating partnerships with local governments and
                                       community officials in the localities where the centers were designated to be
                                       established. These partnerships were created to help plan, manage, and market the
                                       telecommuting concept. By 1996, GSA had opened six centers offering a total of
                                       140 workstations for telecommuting purposes. Since the program's start, Congress
                                       has provided $11 million in appropriated funds to support the pilot program.

                                       Our report showed that agencies' methods of controlling employee time and
                                       attendance were generally consistent with the standards set by the U.S. General
                                       Accounting Office. Our surveys to supervisors of telecommuters within seven Federal
                                       agencies determined that they are taking the appropriate actions to assure themselves
                                       that their employees are working when scheduled. Methods used by the supervisors
                                       include communicating directly with the employees by telephone and/or computer,
                                       workload measurement, and unscheduled site visits to the centers. None of the
                                       supervisors surveyed reported any problems with time and attendance of their
                                       employees while at the centers.

                                       GSA does maintain cost data for each of the telecommuting centers. If needed, this
                                       data could be used to calculate estimates of what future telecommuting sites would



24 Semiannual Report To The Congress
Reviews of GSA Programs

  cost in the surrounding Washington, D.C. area. To date, however, data has not been
  used for this purpose.

  We also found that the Agency, through various initiatives, has used studies and
  employee surveys to assess the benefits derived from telecommuting. For example, it
  has collected information from reports prepared by the Department of Transportation
  and the Department of Energy. These reports address the benefits of telecommuting as
  they relate to society and the environment. Moreover, GSA has been conducting
  surveys of Federal employees upon their entrance into the program. Periodic surveys
  are administered to determine their level of satisfaction with the program and the kind
  of changes the program has made in their lives. Various focus groups have been
  formed and are gathering additional feedback from users, supervisors, co-workers, and
  customers. Information from these initiatives are to be included in GSA's final report
  to the Congress in December 1996. The Agency has also commissioned a study which
  analyzes all aspects of the telecommuting program. The results of this study will be
  included in the December 1996 report.


  Integration Services
  The OIG completed a review of the Integration Services program (ISP) which was
  developed and implemented by the Information Technology Service (ITS) at one
  region to provide integrated technology services to Federal agencies. These services
  primarily include the procurement of electronic data processing (EDP) and
  telecommunications hardware but also include the purchase of software as well as
  installation and maintenance services. We performed the review to determine the
  propriety of ISP' s acquisitions and customer satisfaction with the program.

  GSA awarded contracts to 8(a) firms through the Small Business Administration
  (SBA). After award, delivery orders were issued against the contracts, with total
  aggregate procurements under each contract not to exceed $3 million. GSA paid the
  8(a) firms, and customers reimbursed the Agency for the goods and services plus a fee
  of 1 percent of the procurement cost. During the 6-month period from April 1995,
  when the program began, through September 1995, the ISP processed integrated
  services procurements totaling $117 million for its customers. During October through
  December 1995, integrated services procurements totaled $145 million.

  We received very positive customer feedback on the ISP, and its rapid growth
  illustrates its popularity with Federal agencies. Two customer agencies we visited
  stated that the program saved them considerable time and money. One agency found
  that the ISP helped reduce overall procurement processing time by as much as
  13 months, the 1 percent fee charged is much lower than fees charged by other sources,
  and the equipment received was state-of-the art. The other agency said that timeliness
  was the ISP's greatest attribute. It allowed the agency to execute timely EDP
  acquisition plans and avoid delays typically associated with these procurements.

  While the program was clearly providing services valued by the customer agencies, its
  methods of operation were in material noncompliance with the Federal Acquisition
  Regulation (FAR) and SBA requirements. In addition, Agency officials expressed
  concern about the absence of a legally authorized business plan for the ISP and the
  program's potential effect on the Multiple Award Schedule (MAS) program.



                                                             Office of Inspector General 25
                                Reviews of GSA Programs

                                       Discussions with GSA and SBA officials verified our concerns regarding the
                                       improper use of market surveys, delivery orders for items not covered by contracts,
                                       waivers, award of successive $3 million contracts, determinations of price
                                       reasonableness, and the purchase of specific equipment. Our intent was to raise those
                                       issues to see if they could be resolved which would allow the program to continue to
                                       operate. The issues raised by the audit caused GSA management to hold a conference
                                       to discuss the ISP and determine what should be done to bring it into compliance with
                                       applicable requirements without losing its benefits. The meeting produced two
                                       memoranda regarding operation of the ISP. The first memorandum stated that for the
                                       time being, the ISP should not market or solicit new business, and should comply
                                       with Sea) waiver requirements, increase use of MAS contracts, and ensure that new
                                       contracts comply with new FAR rules governing commercial items acquisitions. The
                                       second memorandum placed the program in a "time out" and review status and
                                       advised that the Federal Information Systems Support program was the only program
                                       authorized to deliver information technology products and services to Federal
                                       agencies. The memorandum also requested the development of a business plan for the
                                       ISP.

                                       We believe that if the ISP can be brought into compliance with regulatory
                                       requirements, it should be continued because of the Federal agencies' overwhelming
                                       response to the program and because its spirit is in line with the National Performance
                                       Review's goal of creating a Government that works better and costs less. GSA should
                                       ensure the ISP complies with applicable regulations, either by changing the
                                       regulations or using other contracting methods. However, the Agency should not
                                       sacrifice the ISP's ability to quickly satisfy customer agencies' needs for EDP and
                                       telecommunications hardware, software, and installation and maintenance services at
                                       competitive prices with little added GSA costs.

                                       The report is advisory in nature and does not contain formal recommendations.




26 Semiannual Report To The Congress
                          Prevention Activities

                          In addition to detecting problems in GSA operations, the OIG is responsiblefor
                          initiating actions to prevent fraud, waste, and abuse and to promote economy and
                          efficiency.

                          The OIG's preaward audit program provides information to contracting officers for
Significant Preaward      use in negotiating contracts. The pre-decisional, advisory nature of preaward audits
Audits                    distinguishes them from other audits. This program provides vital and current
                          information to contracting officers, enabling them to significantly improve the
                          Government's negotiating position and realize millions of dollars in savings on
                          negotiated contracts. This period, the OIG performed preaward audits of
                          124 contracts with an estimated value of over $2 billion. The audit reports contained
                          over $199 million in financial recommendations.


                          Multiple Award Schedule Contracts
                          This period, three of the more significant Multiple Award Schedule contracts we
                          audited had projected Governmentwide sales totaling over $41] million. Based on the
                          audit findings, we recommended that over $47 million in funds be put to better use.

                          The OIG evaluated discount schedule and marketing data submitted in response to
                          GSA's solicitations for the purchase of telecommunications and photographic
                          equipment and supplies. The audits disclosed common problems in the proposals.
                          Companies were offering commercial customers better pricing than offered to GSA.
                          The companies either did not disclose the full extent of higher discounts granted to
                          other customers or did not provide adequate justification for not offering comparable
                          discounts to GSA, even though GSA buys in similar quantities.


                          Other Contracts
                          During this period, we also performed audits on other contracts. Three of the more
                          significant audits contained proposed prices totaling $4.4 million, and recommended
                          adjustments of more than $4.1 million. In an audit of a termination settlement
                          proposal for the upgrade of building energy systems, we advised the contracting
                          officer that the vendor submitted claims for costs which were not incurred, and for
                          unallowable claims for lost profits during the effective period of the Government's
                          termination for default. In an audit of a claim for building renovations, we advised the
                          contracting officer that the contractor submitted overstated claims for labor
                          productivity losses and proposed overhead costs. Finally, in an audit of a claim for
                          increased costs submitted for mechanical and electrical upgrades and miscellaneous
                          building renovations, we advised the contracting officer that the contractor had
                          overstated labor and overhead costs.

                          The Federal Managers' Financial Integrity Act requires GSA management to provide
Federal Managers'         assurance to the President and the Congress that Agency resources are protected from
Financial Integrity Act   fraud, waste, mismanagement, and misappropriation. We advised management that
                          two areas should be reported as material control weaknesses. One area involves
Reviews                   GSA's control over child care centers. We believe a material control weakness exists
                          in the Child Care program because of substantial noncompliance with Public Law
                          101-647, which requires that all employees of the centers be subjected to background
                          checks. Also, several centers are operating in GSA-controlled space without proper



                                                                                      Office of Inspector General 27
                                       Prevention Activities

                                       licenses. Consistent with our report, the Administrator included this as a material
                                       control weakness in his 1995 Assurance Letter to the President. The other area
                                       concerns GSA's control over the recovery of overhead costs associated with
                                       reimbursable work authorizations (RWA). We concluded that because customer
                                       agencies will continue to be undercharged for RWA work through Fiscal Year 1996,
                                       this matter should be acknowledged as a material control weakness. Although not
                                       reported as a material control weakness, the Administrator did highlight this in his
                                       1995 Assurance Letter as an area of concern for which corrective action has been
                                       initiated.

                                       We concur with management's decision to lower the rating for three components of
                                       the telecommunications service program from high risk to moderate risk. These areas
                                       involve two service oversight centers and billing. Nothing else came to our attention
                                       during the review that would lead the OIG to conclude that reporting officials had
                                       other than reasonable and reliable bases for their assurance statements.

                                       We also reviewed GSA's efforts in carrying out Section 4 of the Act by evaluating the
                                       Fiscal Year 1995 assurance statement concerning financial management systems. We
                                       advised management that the statement was complete and adequate.

                                       The OIG presents Integrity Awareness Briefings nationwide to educate GSA
Integrity Awareness                    employees on their responsibilities for the prevention of fraud and abuse, and to
                                       reinforce employees' roles in helping to ensure the integrity of Agency operations.

                                       This period we presented 34 briefings attended by 1,894 regional employees. These
                                       briefings explain the statutory mission of the OIG and the methods available for
                                       reporting suspected instances of wrongdoing. In addition, through case studies and
                                       slides, the briefings make GSA employees aware of actual instances of fraud in GSA
                                       and other Federal agencies and thus help to prevent their recurrence.

                                       The OIG Hotline provides an avenue for concerned employees and other concerned
Hotline                                citizens to report suspected wrongdoing. Hotline posters located in GSA-controlled
                                       buildings, as well as Hotline brochures, encourage employees to use the Hotline.

                                       During this reporting period, we received 1,607 Hotline calls and letters. Of these,
                                       82 complaints warranted further GSA action, 16 warranted other agency action, and
                                       1,509 did not warrant action.

                                       The OIG's program for reviewing leases prior to award provides front-end assurance
Advisory Lease                         that GSA is adhering to regulations and procedures before awarding selected leases
Reviews                                exceeding established thresholds. These reviews, although advisory in nature,
                                       promote opportunities for economy and efficiency in the leasing area, and the
                                       avoidance of problems before they occur.

                                       This period we received 18 lease proposals for review and completed 6 audits. Three
                                       of the proposals reviewed had minor deficiencies which were brought to
                                       management's attention. The Agency has identified the leasing program for
                                       evaluation as a nationwide reinvention project The OIG will provide an independent
                                       verification of the evaluation process.




28 Semiannual Report To The Congress
                       Prevention Activities


Implementation         The OIG performs independent reviews of implementation actions, on a selected
                       basis, to ensure that management's corrective actions in response to OIG
Reviews                recommendations are being accomplished according to established milestones. This
                       period, the OIG performed seven implementation reviews. In six of the reviews, the
                       recommendations were fully implemented. In the seventh review, two
                       recommendations have been partially implemented.

                       The Chief Financial Officers Act of 1990 requires the OIG to conduct or arrange for
Financial Statements   an annual audit of GSA's consolidated financial statements. The Act also requires a
Audit                  report on GSA's system of internal accounting controls and on GSA's compliance
                       with laws and regulations. With oversight and guidance from the OIG, an independent
                       public accounting firm performed this audit for Fiscal Year 1995. In the audit report
                       dated January 4, 1996, GSA received unqualified opinions on its financial statement
                       as well as on its system of internal accounting controls. The report on the system of
                       internal controls described one material weakness concerning the need to reconcile
                       records for supplies inventory. Several conditions affecting other programs or
                       operations were identified where steps should be taken to strengthen internal controls.
                       None of these was considered material.

                       In addition, the OIG completed limited reviews of the internal controls for three
                       program performance measures, a,sessing reasonableness of the control structure to
                       generate reliable performance information as required by Office of Management and
                       Budget Bulletin 93-06. The preliminary assessment showed that the design and
                       implementation of the existing control structure could be improved.

                       This period, the OIG conducted one evaluation to satisfy legislative requirements for
Legislative            Fiscal Year 1995 activities. In the review, the OIG evaluated GSA's compliance with
Requirements           Public Law 101-121, also known as the Byrd Amendment Restriction on Lobbying
                       Activities. The Amendment requires that recipients of contracts, grants, loans, or
                       cooperative agreements over certain dollar thresholds certify that no Federal funds
                       were used for lobbying activities. Disclosure of lobbying activity costs paid from non-
                       Federal funds is also required. Our review indicated that GSA was in compliance with
                       the Amendment's requirements.

                       In December 1995, the Congress abolished the legislative requirement for this annual
                       audit and subsequent reporting of findings to the Congress.




                                                                                  Office of Inspector General 29
                   Review of Legis/ation and Regulations

                                       The Inspector General Act of 1978 requires the OIG to review existing and proposed
                                       legislation and regulations to determine their effect on the economy and efficiency of
                                       the Agency's programs and operations and on the prevention and detection offraud
                                       and mismanagement.

                                       During this period, the OIG reviewed 171 legislative matters and 38 proposed
                                       regulations and directives. The OIG provided significant comments on the following
                                       legislative items:

                                           S. 675, a Bill Automating the Multiple Award Schedule Program. We
                                           expressed significant concern over the bill's pilot program provisions which
                                           would, among other things, provide for the establishment of an automated
                                           system for all information technology products under which price negotiations
                                           would be eliminated and, instead, Multiple Award Schedule (MAS) contracts
                                           would be negotiated on terms and conditions alone. We pointed out that the
                                           realities of the MAS contracting process-in terms of both buying patterns and
                                           the lack of competitive market for some products-suggest that the concept of
                                           direct price comparison is illusory. Also, we suggested that the GSA
                                           Administrator be granted authority to exempt certain schedules, or portions of
                                           schedules, from the scope of the pilot if competition was not present. Finally, we
                                           stressed the importance of conducting a thorough evaluation of the pilot's
                                           results and that the General Accounting Office, in conducting such a review,
                                           should use an evaluation method which benchmarks prices the pilot generates
                                           against prices at which contractors sell to their large commercial customers.

                                           H.R. 1670, the Federal Acquisition Reform Act of 1995. Our comments
                                           focused chiefly on proposed amendments to the Truth in Negotiations Act
                                           (TINA) as they affected the MAS program. We expressed serious reservations
                                           about the proposed elimination of the catalog or market price exception to
                                           TINA, under which most MAS contracts are negotiated. Also, we objected to
                                           the proposed elimination of the TINA provision which allows contracting
                                           officers to require the submission of cost or pricing data on commercial item
                                           contracts when adequate price reasonableness information is unavailable. We
                                           noted that the elimination of these provisions would significantly impair the
                                           Government's ability to obtain fair and reasonable prices on commercial items,
                                           especially MAS items.

                                           National Defense Authorization Act, FY 1996, P.L.I04-106, Division D, the
                                           Federal Acquisition Reform Act, and Division E, the Information
                                           Technology Management Reform Act. We provided comments to the House
                                           Government Reform and Oversight Committee, in response to a request from
                                           staff members, relaying our concerns with the Act's acquisition reform
                                           provisions and the implementation of those provisions. We reiterated our
                                           concern with the Act's elimination of TINA's catalog or market price exception
                                           and the substitution of a blanket commercial items exception. In addition, we
                                           noted our opposition to the requirement to test a contract negotiation procedure
                                           under the MAS pilot program for information technology contracts which would
                                           preclude the negotiation of prices. Also, we expressed reservations about GSA's
                                           proposed implementation of the Federal Acquisition Streamlining Act (FASA)
                                           as it applies to audit rights under MAS contracts. Finally, we noted that GSA's


30 Semiannual Report To The Congress
Review of Legislation and Regulations

             restrictions on audits was not mandated by the Act and would likely have the
             reverse effect of increasing the number of audits rather than decreasing them.

         In addition, the OIG provided comments on the following regulatory items:

             General Services Acquisition Regulation (GSAR) Implementing the Truth
             in Negotiations Act and Commercial Items Provisions of the Federal
             Acquisition Streamlining Act of 1994, P.L. 103-355. This draft interim GSAR
             rule would implement FASA within GSA's programs, specifically the MAS
             program. In our preliminary set of comments, we noted our concerns that the
             draft rule should provide preaward audit access authority for MAS
             procurements. Also, we opposed the elimination of the pricing information
             certification contained in MAS contracts, on the grounds that this would
             diminish the Government's ability to recover for defective pricing. We
             commented that the price adjustment clause, which obligates offerors to provide
             current, accurate, and complete information for contract negotiation purposes,
             should be clarified so that the obligation equally applies to the updating
             information offerors submit after their original offer. Also, we suggested that
             this obligation should apply to all contracts regardless of dollar amount.

             In our comments on a later draft, we focused on the GSAR's treatment of the
             Government's audit authorities. We expressed our concern that GSA's
             restrictions on audit authority over pricing disclosures on MAS contracts was
             neither mandated by law nor in keeping with standard commercial practice. Also,
             we pointed out that the audit limitations in the proposed GSAR would likely
             increase the so-called audit burden on contractors by increasing the number of
             MAS audits to which they are subject and by escalating routine MAS contract
             audits, unnecessarily, into fraud investigations.

             Proposed Executive Order 13, Administrative Allegations Against
             Inspectors General. We expressed our general support for the establishment of
             procedures for the investigation of administrative allegations against Inspectors
             General (IGs) and certain senior officials within OIGs. However, we expressed
             our concern regarding two aspects of the proposed executive order which has
             now been signed by the President. First, in instances where the subject of the
             investigation is a Presidentially appointed IG, rather than an agency appointed
             IG, we noted that it would be inappropriate to provide the investigative report to
             the agency head for review and disposition. By statutory design, the agency
             head lacks authority to take action against a Presidentially appointed IG.
             Second, we noted that a provision in the draft order directing the President's
             Council on Integrity and Efficiency/Executive Council on Integrity and
             Efficiency Chair to forward the report to the "employing agency or entity head"
             was less than clear when applied to situations where either the IG referred an
             allegation against a senior staff member to the Integrity Committee or where the
             referral included both the IG and a senior staff member but the allegations were
             substantiated for only the staff member. We noted that such reports are more
             appropriately reviewed and acted on by the IG as the senior staff member's
             ultimate supervisor.




                                                                    Office ofInspector General 31
                   Review of Legis/ation and R u/ations

                                           Proposed Rewrite of Federal Acquisition Regulation, Part 15, Relating to
                                           Negotiated Contracts, Office of Federal Procurement Policy Initiative. With
                                           respect to the field pricing support provisions of Part 15, which principally
                                           include audit support, we favored retaining the existing standard which allows
                                           contracting officials discretion in determining whether to request such support in
                                           conducting a procurement. However, we noted that the regulatory coverage
                                           setting out the administrative aspects of this support could be considered for
                                           streamlining or elimination. We advocated retaining, in any rewrite of Part 15,
                                           the requirement for contracting officials to prepare a price negotiation
                                           memorandum documenting the principal elements of a price negotiation, chiefly
                                           because it ensures that the Government receives fair and reasonable pricing.
                                           Finally, we expressed our view that any FAR rewrite should not limit individual
                                           agencies' ability to supplement the FAR as this would limit their ability to
                                           promulgate regulations necessary to implement agency-unique procurement
                                           programs and to protect the Government's interests.

                                           Office of Personnel Management (OPM) Proposed Rule, Suitability,
                                           National Security, and Personnel Investigations. The proposed regulations
                                           would eliminate the CUlTent mandatory Governmentwide requirement that
                                           5-year periodic reinvestigations be performed for suitability purposes on all
                                           individuals that occupy public trust positions, such as criminal investigators. We
                                           expressed our understanding that this change was meant to vest agencies with
                                           the discretion to determine whether reinvestigations were appropriate rather than
                                           to preclude reinvestigations altogether.

                                       Also, the OIG provided comments on the following Agency policy items:

                                           Proposed GSA Performance Planning and Review System Handbook. The
                                           draft handbook represented GSA's proposed implementation of OPM's final
                                           regulations, published in August 1995, which deregulated performance
                                           management, including both performance appraisal systems and awards. As a
                                           preliminary matter, we noted that the OIG should be excluded from the coverage
                                           of the GSA system as it is typically exempt from Agency-issued personnel
                                           guidance. We also noted that the handbook's proposed system might, contrary
                                           to the intent of OPM's regulations deregulating performance management, be
                                           overly prescriptive and unnecessarily restrict Agency components' ability to
                                           formulate conforming performance planning and review programs. More
                                           substantively, we commented that, in our view, the adoption of a two-tier
                                           summary level performance rating system was not in the best interests of either
                                           the Agency or its employees, and that certain flexibility should be preserved
                                           relating to supervisors' authority to grant performance awards.

                                           Draft GSA Federal Supply Service Acquisition Letter Relating to Multiyear
                                           Contracting. The proposed acquisition letter would provide guidance on the
                                           extension of contract terms for contracts under GSA's Stock and Special Order
                                           programs and for indefinite period purchase agreements with mandatory sources
                                           of supply such as the Federal Prison Industries and the National Industries for
                                           the Blind. We commented that, in our view, it was not prudent to provide for a
                                           5-year option extension period as there is substantial potential for price
                                           fluctuations in the market for a particular commodity over such a long term. We


32 Semiannual Report To The Congress
Review of Legislation and Regulations

           added that it would be imperative, given the proposed 5-year option period, for
           contracting officials to conduct an effective market analysis before determining
           whether to exercise an option.

           Draft Federal Supply Service Acquisition Letter Relating to Parallel
           Contracting. This letter would implement, within GSA's Stock and Special
           Order program, recent statutory authority provided by FASA which allows
           agencies, under certain circumstances, to engage in alternate source contracting.
           When the Government engages in alternate source contracting, we noted that it
           incurs both additional procurement and contract administration costs as well as
           the added costs involved in purchasing a significant portion of its requirements
           at other than the lowest price offered. Because of this, we cautioned that the
           authority to engage in parallel contracting be used sparingly. We also suggested
           that the Federal Supply Service provide explicit guidance on when using the
           authority is appropriate and provide for administrative controls on the use of
           parallel contracting.




                                                                 Office of Inspector General 33
          Statistical Summary of OIG Accomplishments

                                       Audit Reports Issued
                                       The OIG issued 223 audit reports, including 19 audits performed for the OIG by
                                       another agency. The 223 reports contained financial recommendations totaling
                                       $215,331,879, including $199,861,583 in recommendations that funds be put to better
                                       use and $15,470,296 in questioned costs. Due to GSA's mission of negotiating
                                       contracts for Governmentwide supplies and services, most of the recommended
                                       savings that funds be put to better use would be applicable to other Federal agencies.


                                       Management Decisions on Audit Reports
                                       Table 1 summarizes the status of the universe of audits requiring management
                                       decisions during this period, as well as the status of those audits as of March 31, 1996.
                                       Thirty reports more than 6 months old were awaiting management decisions as of
                                       March 31, 1996; all of them were preaward audits which are not subject to the
                                       6 month management decision requirement. Table 1 does not include one report
                                       issued to another agency this period and 22 reports excluded from the management
                                       decision process because they pertain to ongoing investigations.



                               Table 1. Management Decisions on OIG Audits
                                                                                Reports with                    Total
                                                               No. of             Financial                  Financial
                                                              Reports         Recommendations            Recommendations

  For which no management decision
  had been made as of 10/1/95
      Less than 6 months old                                        94                  69                    $ 38,045,818
     More than 6 months old                                         15                  14                       4,233,858
  Reports issued this period                                       222             114                         215,331,879
                                                                                                                 ---    - -

  TOTAL                                                       --   331           ___
                                                                                   197____                wJS257,611,555      - - - - f--

  For which a management decision
  was made during the reporting
  period
      Issued prior periods                                          79                  55                    $ 32,211,850
     Issued current period                                         140                  48                      76,973,814
  TOTAL                                                            219                103                     $109,185,664
  For which no management decision
  had been made as of 3/31/96
      Less than 6 months old                                        82                  66                    $138,358,065
     More than 6 months old                                         30                  28                      10,067,826
  TOTAL                                                            112                  94                    $148,425,891




34 Semiannual Report To The Congress
        Statistical Summary of OIG Accomplishments

                                       Management Decisions on Audit Reports With Financial
                                       Recommendations
                                       Tables 2 and 3 present the audits identified in Table 1 as containing financial
                                       recommendations by category (funds to be put to better use or questioned costs). One
                                       report contained recommendations that funds be put to better use as well as
                                       questioned costs, and this report is therefore included in both tables 2 and 3.



                        Table 2. Management Decisions on OIG Audits with
                        Recommendations that Funds be Put to Better Use
                                                                        No. of                          Financial
                                                                       Reports                      Recommendations
For which no management decision had
been made as of 10/1/95
    Less than 6 months old                                                  55                          $ 32,449,057
    More than 6 months old                                                  14                             4,233,858
Reports issued this period                                                  91                           199,861,583
TOTAL                                                                     160                           $236,544,498
For which a management decision was
made during the reporting period
    Recommendations agreed to by
    management based on proposed
    • management action                                                                                 $ 88,422,916
    • legislative action
    Recommendations not agreed to
    by management                                                                                           1,07Q,108
TOTAL                                                                       73                          $ 89,493,024
For which no management decision had
been made as of 3/31/96
    Less than 6 months old                                                  59                          $136,983,648
    More than 6 months old                                                  28                            10,067,826
TOTAL                                                                       87                          $147,051,474




                                                                                                 Office of Inspector General 35
              Statistical                     mmary of OIG Accomplishments


                                       Table 3. Management Decisions on OIG
                                            Audits with Questioned Costs
                                                                    No. of                    Questioned        Unsupported
                                                                   Reports                      Costs              Costs
      For which no management decision
      had been made as of 10/1/95
          Less than 6 months old                                       14                     $ 5,596,761            $
          More than 6 months old                                         o                          o
      Reports issued this period                                       24                     15,470,296
      TOTAL                                                            38                     $21,067,057            $-
      For which a management decision
      was made during the reporting
      period
          Disallowed costs                                                                    $19,337,994   *        $
          Costs not disallowed                                                                    354,646
      TOTAL                                                            30                     $19,692,640            $-
      For which no management decision
      had been made as of3/31/96
          Less than 6 months old                                         8                    $ 1,374,417            $-
          More than 6 months old                                        o                           o
      TOTAL                                                              8                    $ 1,374,417            $-
      * $240,000 o.fthis amount was recovered in civil settlements, as reported in Table 5.
--~---    -----_.--- -----              ---_.--           -----     -.------~------------          -----~--------.




    36 Semiannual Report To The Congress
Statistical Summary of OIG Accomplishments

                        Investigative Workload
                        The OIG opened 168 investigative cases and closed 178 cases during this period. In
                        addition, the OIG received and evaluated 89 complaints and allegations from sources
                        other than the Hotline that involved GSA employees and programs. Based upon our
                        analyses of these complaints and allegations, OIG investigations were not warranted.


                        Referrals
                        The OIG makes criminal refenals to the Department of Justice or other authorities for
                        prosecutive consideration and civil referrals to the Civil Division of the Department
                        of Justice or U.S. Attorneys for litigative consideration. The OlG also makes
                        administrative referrals to GSA officials on certain cases disclosing wrongdoing on
                        the part of GSA employees, contractors, or private individuals doing business with the
                        Government.



                      Table 4. Summary of OIG Referrals

   Type of Referral                               Cases                                 Subjects
   Criminal                                         26                                       43
   Civil                                              8                                      15
   Administrative                                   94                                     303
   TOTAL                                           128                                     361


                        In addition, the OIG made 10 refenals to other Federal activities for further
                        investigation or other action and 1] 3 referrals to GSA officials for informational
                        purposes only.


                        Actions on OIG Referrals
                        Based on these and prior referrals, 19 cases (33 subjects) were accepted for criminal
                        prosecution and 6 cases (12 subjects) were accepted for civil litigation. Criminal cases
                        originating from OIG referrals resulted in 15 indictments/informations and
                        5 successful prosecutions. OIG civil referrals resulted in 12 cases being accepted for
                        civil action, 4 case settlements, and 2 judgments. Based on OIG administrative
                        referrals, management debarred 81 contractors, suspended 67 contractors, and took
                        26 personnel actions against employees.




                                                                                    Office of Inspector General 37
          Statistical Summary of OIG Accomplishments

                                        Monetary Results
                                        Table 5 presents the amounts of fines, penalties, settlements, judgments, and
                                        restitutions payable to the U.S. Government obtained as a result of criminal and civil
                                        actions arising from OIG referrals.

                                        In addition, the OIG identified for recovery $9,798,167 in money and/or property
                                        during the course of its investigations.


                                   Table 5. Criminal and Civil Recoveries

                                                              Criminal                                   Civil
             Fines and Penalties                               $14,175                            $
             Settlements or Judgments                                                                 2,311,519*
             Restitutions                                       16,700
             TOTAL                                             $30,875                            $2,311,519

  * This amount includes $240,000 reportable pursuant to section 5(a)(8) o/the Inspector General Act as management
  decisions to disallow costs. See Table 3.




38 Semiannual Report To The Congress
APPENDICES
      Appendix /- Significant Audi                                                                                 orts

Under the Agency's audit management decision process,              GSA's Fine Arts Program
GSA's Office of Management Services and Human Resources,
Office of Management Controls and Evaluation, is responsible       Period First Reported: October 1,1994 to March 31,1995
for tracking implementation of audit recommendations after a       The review focused on GSA's oversight of fine art located in
management decision has been reached. That office furnished        Federal and non-federal institutions. The report contained five
the following status information.                                  recommendations; one has been implemented.

Thirteen audits highlighted in prior Reports to the Congress       The recommendations involve reassessing the policies and
have not yet been fully implemented; all are being                 practices for fine art in non-federal institutions, determining
implemented in accordance with currently established               ownership status, developing policy for the utilization of fine
milestones.                                                        art in Federally controlled space and its acceptance and
                                                                   disposal, and providing long-term storage. They are scheduled
Buildings Operations and Maintenance                               for completion by January 15, 1997.
Services
Period First Reported: April 1, 1995 to September 30,1995          Reimbursable Work Authorizations
The review identified opportunities for improvement in GSA's       Period First Reported: October 1,1994 to March 31,1995
process for performing space alterations. The report contained     The review identified opportunities for improvement in GSA's
six recommendations; one has been implemented.                     recovery of indirect costs related to the performance of
                                                                   reimbursable work authorizations (RW As). The report
The recommendations include the development of expedited           contained two recommendations; neither have been
procedures and simplified forms, and improvements in project       implemented.
oversight and communication with customer agencies. They
are scheduled for completion by December 15, 1996.                 The recommendations involve the development of overhead
                                                                   rates to be applied to RWAs and charged to customer agencies.
Construction Projects                                              They are scheduled for completion by October 15, 1996.
Period First Reported: April 1, 1995 to September 30,1995
The report identified opportunities for improvement in the         Real Estate Management
bidding and contracting practices of major GSA construction        Period First Reported: April 1 ,1994 to September 30,1994
projects. The report contained eight recommendations; one has
                                                                   The review found that repair and alteration projects in one
been implemented.
                                                                   region could be more comprehensively planned and data bases
Two of the remaining recommendations involve evaluating the        more accurately maintained. The report contained ten
Courthouse Management Group and assessing the construction         recommendations; seven have been implemented.
program's workload. They are scheduled for completion no
later than October 15, 1996. Four recommendations involve          One recommendation, involving the validation of work items
the development of policy and guidance regarding cash flow         listed in the data base, is scheduled for completion by
analysis, sale of existing GSA-owned buildings, source             September 15, 1997. The remaining recommendations, which
selection, and embellishments and are scheduled for                require the identification of building retention status and the
completion by January 15, 1997. The final recommendation,          validation of inspection data, are currently under review due to
involving an evaluation of the method used to establish rent for   the receipt of a revised action plan on March 19, 1996.
special purpose space, is scheduled for completion by              Therefore, a completion date was not available at the close of
November 15, 1997.                                                 the reporting period.




                                                                                                     Office ofInspector General 41
      Appendix /- Significant Audits From Prior Reports

Maintenance Control Center Operations                           Business Allocation
Period First Reported: April 1 ,1994 to September 30,1994       Period First Reported: October 1,1993 to March 31,1994
The review identified opportunities for improvement in the      The review focused on GSA's administration of the 60 percent
processing of invoices and the management of maintenance        and 40 percent anticipated business allocation between two
and repair data. The report contained five recommendations;     FTS contractors. The report contained two recommendations;
one has been implemented.                                       one has been implemented.

                                                                The remaining recommendation involves GSA's determination
The remaining recommendations require establishing
                                                                of its future role in contractor revenue allocation and indicating
alternative payment procedures, revising a GSA order to
                                                                it in future proposals. Completion is scheduled by
permit use of credit cards for routine automotive maintenance
                                                                July 15,1996.
and repairs, transferring service information from customer
agencies, and streamlining operational structure. They are
scheduled for completion by October 15, 1996.
                                                                Procurement Personnel Development
                                                                Period First Reported: April 1 ,1993 to September 30,1993
Federal Protective Service                                      This review advised management to streamline and update its
                                                                development programs for procurement personnel. The report
Period First Reported: October 1, 1993 to March 31,1994         contained one recommendation; it has not yet been
The review found that GSA needed to strengthen its control      implemented.
over firearms and improve internal security. The report
contained 14 recommendations; 13 have been implemented.         This recommendation requires improving the warranting,
                                                                training, and certification programs. All actions related to the
The remaining recommendation involves making                    implementation have been completed except for a follow-up
improvements to alarm systems. It is scheduled for completion   review which is scheduled for completion by June 15, 1996.
by October 15,1996.
                                                                Local Telephone Service Program
Distribution Centers                                            Period First Reported: April 1 , 1993 to September 30, 1993
Period First Reported: October 1, 1993 to March 31, 1994        The review disclosed the need to provide better service to
                                                                Federal customers of the local telecommunications program.
The review identified opportunities for improvement in
                                                                The report included six recommendations. However, the
inventory management at a wholesale distribution center. The    passage of the Telecommunications Act of 1996 has caused
report contained 16 recommendations; 15 have been               significant changes to the existing action plan. Submission of
implemented.                                                    the revised plan is scheduled for April 30, 1996; therefore,
                                                                completion dates for the recommendations were not available
The remaining recommendation involves improvements in           by the close of the reporting period.
stock selection accuracy. All actions related to the
implementation have been completed except for a follow-up       Two recommendations which had been implemented have
review which is scheduled for completion by April 15, 1996.     been reopened. They involved the identification of customers




42 Semiannual Report To The Congress
      Appendix /- Significant Audits From Prior Reports

who should be provided alternative means of service and the       action based on that determination. While all pertinent actions
establishment of multi-year rates. Two recommendations            have been taken on this recommendation, it remains open until
require comparing costs with services available from the          all recovery actions are completed.
private sector and improving the payment processing. The
remaining two recommendations involve rate agreements and
management of toll calls.
                                                                  Contract Workload Management
                                                                  Period First Reported: April 1 ,1992 to September 30,1992
Employee Benefit Programs                                         This review revealed the need to develop a strategy for
Period First Reported: October 1,1992 to March 31,1993            addressing procurement workload concerns. The report
This review found that the processing of health benefit           contained one recommendation; it has not yet been
insurance transactions needed improvement. The report             implemented.
contained two recommendations; one has been implemented.
                                                                  This recommendation involves establishing a working group to
The remaining recommendation required a determination             develop a system for addressing identified issues and to give
whether it would be cost beneficial to recover health benefit     attention to the Multiple Award Schedule program concerns. It
insurance contributions for prior years and to take appropriate   is scheduled for completion by December 15, 1996.




                                                                                                    Office of Inspector General 43
                        Appendix // . . . Audit                           port Register
                                                                                                     Financial
                                                                                                Recommendations
                                                                                           Funds To          Questioned
Date of       Audit                                                                        Be Put To       (Unsupported)
Report        Number                                   Title                               Better Use          Costs


              (Note: Due to the pre-decisional nature (~l some audits, the jj'nancial
              recommendations pertaining to these reports are not listed in this
              Appendix.)

PBS           INTERNAL AUDITS
10/05/95      A52490         Preaward Lease Audit: 21041 Burbank Boulevard, Woodland
                             Hills, California, Pacific Rim Region, Lease Number
                             GS-09B-94538

10/18/95      A50349         Interim Advisory Report on the Federal Operations Review
                             Model Analysis of the Property Management Business Line

10/18/95      A53312         Interim Advisory Report on the Federal Operations Review
                             Model Analysis of the Commercial Broker Business Line

10/23/95      A53050         Postaward Lease Audit: One Independence Square, Lease
                             Number GS-llB-20713

11/03/95      A60311         Preaward Lease Review: Internal Revenue Service-Lowell,
                             MA, Solicitation for Offers 2PXE2397

12/04/95      A51528         Audit of the Midwest Buildings Management Field Office,
                             Great Lakes Region

12/12/95      A50353         Advisory Report on the Public Buildings Service Overhead
                             Expenses Incorporated into the Federal Operations Review
                             Model, Phase I Process

12/20/95      A52161         Limited Audit of Denver Federal Center Service Center Field
                             Office

12/28/95      A62113         Preaward Lease Review: Drug Enforcement Administration,
                             Houston, Texas, Lease Number GS-07B-14304

01/04/96      A60627         Preaward Lease Review: 3000 JFK Blvd., Jersey City, New
                             Jersey, Lease Number GS-02B-22851

01/19/96      A51561         Audit of Postaward Lease Administration: U.S. Bankruptcy
                             Court, Detroit, Michigan, Lease Number GS-05B-15622

01/26/96      A62449         Preaward Lease Audit: 400 North 5th Street, Phoenix,
                             Arizona, Pacific Rim Region, Lease Number GS-09B-96089

02/26/96      A51848         Interim Report Review of Prompt Software Initiative




44 Semiannual Report To The Congress
                     A endix //- Audit Report R                                        "
                                                                                       IS      r
                                                                                                 Financial
                                                                                            Recommendations
                                                                                       Funds To          Questioned
Date of    Audit                                                                       Be Put To       (Unsupported)
Report     Number                                Title                                 Better Use          Costs

02/26/96   A62439      Postaward Lease Audit: 185 Lennon Lane, Walnut Creek,
                       California, Pacific Rim Region

02/26/96   A63007      Interim Advisory Report on the Federal Operations Review
                       Model Analysis of the Property Disposal Business Line

02/28/96   A51233      Audit of Procurement Program, Atlanta East Field Office,
                       Region 4

03/07/96   A63016      Preaward Lease Review: Crystal Mall 2, 3, and 4, Arlington,
                       Virginia, Lease Number GS-11B-90179

03/18/96   A60622      Assist to Contracting Officer on Field Office Overhead Costs,
                       Terminal Construction Corporation, Contract Number
                       GS-02P-23256

03/19/96   A62107      Review of Region 7's Procurement of Emergency Repairs at
                       the Earle Cabell Federal Building

03/19/96   A62109      Postaward Lease Review: Elmwood Tower, Metairie,
                       Louisiana, Lease Number GS-07B-12038

03/20/96   A6061 1     Review of the Greater Manhattan Buildings Management
                       Field Office, Region 2

03/21/96   A60628      Interim Advisory Report on the Federal Operations Review
                       Model Analysis of the Federal Protective Service Business
                       Line

03/22/96   A60623      Assist to Contracting Officer on Home Office Overhead
                       Costs, Terminal Construction Corporation, Contract Number
                       GS-02P-23256

03/22/96   A63017      Preaward Lease Review: Metro T, Prince George's Metro
                       Center, Hyattsville, Maryland, Lease Number GS-ll B-60298

03/27/96   A62424      Audit of Criminal History Background Checks for Child Care
                       Center Employees

03/28/96   A53318      Advisory Report: A 1988 Report Pertaining to Construction
                       and Building Security May Benefit GSA's Enhanced
                       Security Program

03/29/96   A42720      Audit of Accounting and Billing Controls Over the Public
                       Buildings Service, National Capital Region's Reimbursable
                       Work Authorizations



                                                                                            Office of Inspector General 4S
                       Appendix // . . . Audit Report Register
                                                                                                       Financial
                                                                                                   Recommendations
                                                                                                     ------      ---

                                                                                              Funds To         Questioned
Date of       Audit                                                                           Be Put To      (Unsupported)
Report        Number                                   Title                                  Better Use         Costs


03/29/96      A61520         Interim Advisory Report on the Federal Operations Review
                             Model Analysis of the Fee Developer Business Line


PBS           CONTRACT AUDITS
10/03/95      A52501         Pre award Audit of Lease Escalation Proposal: GV Eleven,
                             Lease Number GS-09B-60808

10/04/95      A50940         Audit of a Claim: Atlantic Plate Glass and Window Co., Inc.,
                             Subcontractor to the George Hyman Construction Company,
                             Contract Number GS-I1P92MKC0062

10/05/95      A52564         Preaward Audit of Cost or Pricing Data: Pacific General, Inc.,
                             Solicitation Number GS-09P-95-KTD-00l5

10/06/95      A50670         Preaward Audit of a Claim: Morgan & Thornburg, Inc.,
                             Subcontractor to Mortenson Company, Contract Number
                             MSCAA-0085

10/06/95      A50673         Postaward Audit of Fixed Price Incentive Contract: BPT                             $567,662
                             Properties Foley Square, L.P., Contract Number GS-02P-91-
                             CUC-0057

10/06/95      A51244         Preaward Audit of Small Business Administration 8(a)
                             Pricing Proposal: Diversified Environmental Management,
                             Inc., Solicitation Number GS-04P-95-EWC-0259

10/17/95      A50675         Postaward Audit of Fixed Price Incentive Contract: Tishman                       $6,338,451
                             Foley Partners, General Conditions Costs, Contract Number
                             GS-02P-91-CUC-0058

10/17/95      A51567         Preaward Audit of Lease Escalation Proposal: Detroit
                             Associates Limited Partnership, GSA Lease Number
                             GS-05BR-09585

10/18/95      A50663         Postaward Audit of Fixed Price Incentive Contract: Structure                     $3,686,605
                             Tone Inc., Subcontractor to BPT Properties Foley Square,
                             L.P., Contract Number GS-02P-91-CUC-0057

10/18/95      A50680         Preaward Audit of Architect and Engineering Services
                             Contract: Haines Lundberg Waehler, Solicitation Number
                             GA11P95EGDOO07

10/23/95      A50354         Preaward Audit of Architect and Engineering Services
                             Contract: ICF Kaiser Engineers, Inc., Solicitation Number
                             GS-01P-95-BZD-0044



46 Semiannual Report To The Congress
                     Appendix //- Audit Report Register
                                                                                               Financial
                                                                                          Recommendations
                                                                                     Funds To          Questioned
Date of     Audit                                                                    Be Put To       (Unsupported)
Report      Number                              Title                                Better Use          Costs

10/23/95    A51247     Preaward Audit of Change Order Proposal: M. B. Kahn
                       Construction Company, Incorporated, Lease Number GS-
                       04B-33057

10/25/95    A53672     Preaward Audit of Cost or Pricing Data: Superior
                       Management Services, Inc., Solicitation Number GS 11P94-
                       MKC0086

10/27/95    A53683     Preaward Audit of Architect and Engineering Services
                       Contract: Tetra Tech, Inc., a Subcontractor to Leo A. Daly,
                       Solicitation Number GS 11P95EGDOO07

10/30/95    A52511     Audit of Claim for Increased Costs: Mountain Gravel &
                       Construction Co., Subcontractor to Gonzales Construction
                       Company, Inc., Contract Number GS-08P-93-JXC-0089

] 1/13/95   A52494     Audit of Proposed Claim for Increased Costs: douglas e.
                       barnhart, inc., Contract Number GS-09P-93-KTC-0070

11/21/95    A53682     Preaward Audit of Sole Source Contract: The Atlantic
                       Company of America, Inc., a Subcontractor of R. D. Smith
                       Builders, Inc., Solicitation Number GS-ll P94MQC0040
                       "NEG" 8(a)

11/22/95    A50678     Preaward Audit of a Change Order Proposal: Leewen
                       Contracting Corporation, Contract Number GS-02P-93-CUC-
                       0054

11/22/95    A63607     Preaward Audit of Architect and Engineering Services
                       Contract: Greenhorne & O'Mara, Inc., Solicitation Number
                       GSI1P94EGCOO11

11/28/95    A50676     Preaward Audit of a Claim: Boro Developers, Inc., Contract
                       Number GS-03P-92-CDC-0335

11/28/95    A50677     Preaward Audit of Cost or Pricing Data: Leewen Contracting
                       Corporation, Solicitation Number GS02P9SDTC0015

12/07/95    A51856     Preaward Audit of Cost or Pricing Data: Gill Construction,
                       Inc., Solicitation Number GS06P95GYC0030

12/08/95    A62418     Pre a ward Audi t of Change Order Proposal: Clemens
                       Construction Company, Contract Number GS-09P-94-KTC-
                       0070

12/12/95    A61806     Preaward Audit of Cost or Pricing Data: Pioneer Electric,
                       Inc., Contract Number GS06P94GYC0076(N)


                                                                                          Office of Inspector General 47
                       Appendix //- Audit Report Register
                                                                                                      Financial
                                                                                                 Recommendations
                                                                                            Funds To          Questioned
Date of       Audit                                                                         Be Put To       (Unsupported)
Report        Number                                   Title                                Better Use          Costs


12/15/95      A62110         Audit of Claim for Increased Cost: Ogden Allied Eastern
                             States Maintenance Corporation, Contract Number GS-07P-
                             92-HTC-00 15

12/22/95      A60618         Preaward Audit of Architect and Engineering Services
                             Contract: Einhorn Yaffee Prescott, Architecture and
                             Engineering, P.C., Solicitation Number GS 11P95AQCOO 17

12/28/95      A61525         Preaward Audit of a Delay Claim: Blinderman Construction
                             Co., Inc., Contract Number GS05P90GBC0061

12/29/95      A52504         Preaward Audit of a Claim: Strand Hunt Construction, Inc.,
                             Contract Number GS-09P-91-LTC-00l4

01/16/96      A63606         Preaward Audit of Architect and Engineering Services
                             Contract: Arel Architects, Inc., Solicitation Number
                             GS I1P95EGD0004

01/17/96      A61518         Preaward Audit of Architect and Engineering Services
                             Contract: Williams Trebilcock Whitehead, Contract Number
                             GS05P94GBC0049

01/22/96      A63618         Preaward Audit of Architect and Engineering Services
                             Contract: GNM & Associates, Inc., Solicitation Number
                             GS-IIP-95-EGD-00l6

01/25/96      A53681         Audit of Claim for Increased Cost: John J. Kirlin, Inc.,
                             Contract Number GS-l1P90MKC0129

01/25/96      A63616         Preaward Audit of Sole Source Contract: Hega Construction
                             Company, Inc., Solicitation Number GS-IIP95MKC0021
                             "NEG" 8(a)

01/26/96      A61807         Preaward Audit of Cost or Pricing Data: Goodwill Industries,
                             Inc., Contract Number GS06P94GXCOl09

01/26/96      A63617         Preaward Audit of Sole Source Contract: Hega Construction
                             Company, Inc., Solicitation Number GS-IIP95MQC0019
                             "NEG" 8(a)

02/07/96      A62444         Preaward Audit of Cost or Pricing Data: SMF Systems
                             Corporation, Solicitation Number GS-08P-96-JAC-0502

02/09/96      A61215         Preaward Audit of Architect and Engineering Services
                             Contract: Hansen Lind Meyer, Inc., Solicitation No. GS-04P-
                             95-EXC-0019



48 Semiannual Report To The Congress
                    Appendix II . . . Audit Report Register
                                                                                                 Financial
                                                                                            Recommendations
                                                                                          ---------       -   ---------

                                                                                       Funds To          Questioned
Date of    Audit                                                                       Be Put To       (Unsupported)
Report     Number                               Title                                  Better Use          Costs

02/09/96   A61216     Preaward Audit of Architect and Engineering Services
                      Contract: KBJ Architects, Inc., Consultant to Hansen Lind
                      Meyer, Inc., Solicitation No. GS-04P-95-EXC-0019

02/15/96   A63621     Preaward Audit of Cost or Pricing Data: Paramount
                      Mechanical Corporation, a Subcontractor to Packard
                      Construction Corporation, Solicitation Number GS-11P95-
                      MKC0016 "NEG" (8(A»

02/20/96   A63623     Preaward Audit of Sole Source Contract: Packard
                      Construction Corporation, Solicitation Number GS-
                      IlP95MKC0016 "NEG" 8(a)

02/21/96   A60624     Pre award Audit of a Termination Settlement Proposal: ESC
                      Poly tech Consultants, Inc., Contract Number GS-07P-92-
                      HUC-0067

02/22/96   A60632     Preaward Audit of Architect and Engineering Services
                      Contract: Gensler and Associates, Architects, Solicitation
                      Number GS-02P-1CUC0058

02/22/96   A63609     Audit of Claim for Increased Cost: R. Bratti Associates, Inc.,
                      a Subcontractor of the George Hyman Construction
                      Company, Contract Number GS-I1P92MKC0062

02/29/96   A61219     Preaward Audit of Small Business Administration 8(A)
                      Pricing Proposal: Desmear Systems, Incorporated,
                      Solicitation Number GS-04P- 95-EWC-0171

02/29/96   A62445     Preaward Audit of a Claim: lAM/Environmental, Inc.,
                      Subcontractor to Hibbitts Construction, Inc., Contract
                      Number GS-07P-91-JXC-OOlO

03/01/96   A60327     Report on Audit of Subcontractor's Claim for Increased
                      Costs: Kendland Company Inc., Contract Number
                      GS01P93BZC0003

03/01/96   A61519     Preaward Audit of Architect and Engineering Services
                      Contract: Van Dijk, Pace, Westlake & Partners, Contract
                      Number GS05P95GBC0018

03/08/96   A52505     Preaward Audit of a Claim: DeKo Enterprises, Inc., Contract
                      Number GS-09P-91-LTC-0014

03/11/96   A60919     Preaward Audit of Architect and Engineering Services
                      Contract: Burt Hill Kosar Rittelmann Associates, Contract
                      Number GS I1P95EGCOOlO


                                                                                             Office of Inspector General 49
                       Appendix //- Audit Report Register
                                                                                                     Financial
                                                                                                Recommendations
                                                                                           Funds To          Questioned
Date of       Audit                                                                        Be Put To       (Unsupported)
Report        Number                                  Title                                Better Use          Costs


03/15/96      A51572         Preaward Audit of Lease Escalation Proposal: Detroit &
                             Canada Tunnel Corporation, Lease Number GS-05B-12863

03/18/96      A60318         Report on Audit of Claim for Increased Costs: Maron
                             Construction Co., Inc., Contract Number GS01P93BZC0003

03/25/96      A61233         Preaward Audit of Architect and Engineering Services
                             Contract: CMW, Inc. and Spillis Candela & Warnecke, PC,
                             Solicitation Number GS-04P-95-EXC-0027


FSS           INTERNAL AUDITS
10/13/95      A52149         Audit of the Federal Personal Property Donation Program,
                             State of North Dakota

lO/31/95      A53033         Audit of GSA's Controls Over Civilian Agencies' Activity
                             Address Codes

11/02/95      A50652         Audit of the Travel Management Center in Region 2, US
                             Travel Systems, Inc., New York, NY

11/03/95      A62420         Audit of GSA Environmental Options (GEO) Invoice
                             Payments, Federal Supply Service, Pacific Rim Region

11/22/95      A52528         Interim Advisory Report on the Federal Operations Review
                             Model Analysis of the Interagency Fleet Management System
                             Business Line

12/14/95      A52160         Audit of Denver Fleet Management and Maintenance Control
                             Centers Operations

12/29/95      A52478         Audit of the San Francisco Fleet Management Center, Pacific
                             Rim Region

02/14/96      A606lO         Audit of Personal Property Donation Program, Region 2

03/01/96      A60321         Advisory Report on the Federal Supply Service Overhead
                             Expenses Incorporated Into The Federal Operations Review
                             Model, Phase I Process

03/08/96      A52475         Audit of the Federal Personal Property Donation Program,
                             State of Washington

03/12/96      A62419         Advisory Report on the Environmental Services Pilot
                             Program, Federal Supply Service, Pacific Rim Region

03/19/96      A51844         Advisory Review on Pricing of FSS Stock Program Items


50 Semiannual Report To The Congress
                     Appendix 11- Audit Report Register
                                                                                               Financial
                                                                                          Recommendations
                                                                                     Funds To          Questioned
Date of     Audit                                                                    Be Put To       (Unsupported)
Report      Number                              Title                                Better Use          Costs

03/25/96    A53321     FSS' Stock Program Management Information Systems Need
                       to be Improved to Provide More Accurate and Reliable
                       Information

03/29/96    A60620     Review of Fleet Management Center Operations, Brooklyn,
                       NY

FSS         CONTRACT AUDITS
10/03/95    A52503     Limited Audit of Government Billings: Ashtech, Inc.,                               $7,443
                       Contract Number GS-00F-7 407 A

10/04/95    A50347     Preaward Audit of Multiple A ward Schedule Contract:
                       Polaroid Corporation, Solicitation Number FCGE-95-B8-
                       0150

10/06/95    A50950     Preaward Audit of Multiple Award Schedule Contract: Xerox
                       Corporation (Document Systems) Contract Number
                       GSOOK94AGS5817-PS02

10/06/95    A51242     Preaward Audit of Multiple Award Schedule Contract: Casi-
                       Rusco Incorporated, Solicitation Number 7FXI-R7-94-6302-B

10/12/95    A50668     Preaward Audit of Multiple Award Schedule Contract: Elmo
                       Manufacturing Corporation, Solicitation Number FCGE-95-
                       B8-0150-N

10/17 /95   A42164     Postaward Audit of Multiple Award Schedule Contract:
                       Polaris Industries L.P., Contract Number GS-00F-5454A

10/18/95    A52454     Preaward Audit of Multiple Award Schedule Contract:
                       Trimble Navigation, Limited, Solicitation Number FCGR-95-
                       0002B-N

10/18/95    A52562     Limited Audit of Government Billings: Desco Manufacturing                         $36,700
                       Company, Inc .. Contract Number GS-00F-5404A

10/19/95    A51846     Preaward Audit of Multiple Award Schedule Contract:
                       Invacare Corporation, Solicitation Number 3FNH-94-FWOI-N

10/20/95    A42169     Postaward Audit of Multiple A ward Schedule Contract:                              $7,280
                       Mitsubishi Motor Sales of America, Inc., Contract Number
                       GS-00F-5446A

10/26/95    A53680     Preaward Audit of Cost or Pricing Data: Sutron Corporation,
                       Solicitation Number FCGR-95-0002-B



                                                                                          Office of Inspector General 51
                       A endix //- Audit Report Register
                                                                                                      Financial
                                                                                                 Recommendations
                                                                                            Funds To          Questioned
Date of       Audit                                                                         Be Put To       (Unsupported)
Report        Number                                   Title                                Better Use          Costs


10/31/95      A50669         Preaward Audit of Multiple Award Schedule Contract:
                             Eastman Kodak Company, Solicitation Number FCGE-95-
                             B8-0l50-N

10/31/95      A51566         Preaward Audit of Multiple Award Schedule Contract: West
                             Publishing Corporation, Solicitation Number 2FYG-LG-
                             940002-B

11/02/95      A50949         Preaward Audit of Multiple Award Schedule Contract: Canon
                             U.SA, Inc., Solicitation Number FCGE-95-B8-0150-N

11/02/95      A60306         Pre award Audit of Multiple Award Schedule Contract:
                             Sennheiser Electronic Corp., Solicitation Number GSC-KES-
                             00066

11/03/95      A51569         Pre award Audit of Multiple Award Schedule Contract:
                             Milcare, Inc., A Herman Miller Co., Solicitation Number
                             FCGE-95-B6-0l58-N

11/03/95      A52158         Preaward Audit of Multiple Award Schedule Contract:
                             Datacard Corporation, Solicitation Number FCGE-95-B8-
                             0150-N

11/09/95      A21266         Postaward Audit of Multiple A ward Schedule Contract: Rose                       $728,507
                             Talbert Paint Company, Contract Number GS-lOF-48584

11/13/95      A52560         Preaward Audit of Multiple Award Schedule Contract:
                             Trimble Navigation, Limited, Solicitation Number GSC-KES-
                             00066-N-08-09-95

11/24/95      A50952         Preaward Audit of Multiple Award Schedule Contract:
                             Yuasa-Exide, Incorporated, Solicitation Number 7FXI-R7-95-
                             6108-B

11/28/95      A50348         Postaward Audit of Multiple Award Schedule Contract:                            $447,144
                             Ascom Hasler Mailing Systems, Inc., Contract Number GS-
                             OOF-7156A for the Period July 1, 1992 through June 30,1995

11/30/95      A50671         Pre award Audit of Multiple A ward Schedule Contract: Ilford
                             Photo, Solicitation Number FCGE-95-B8-0150-N

12/04/95      A60309         Preaward Audit of Multiple Award Schedule Contract: Telco
                             Systems, Incorporated, Solicitation Number GSC-KES-00066

12/04/95      A60316         Postaward Audit of Government Billings Under Contract                             $30,033
                             Number GSOOK93AGS0517: Telco Systems, Incorporated



52 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                                Financial
                                                                                           Recommendations
                                                                                      Funds To          Questioned
Date of    Audit                                                                      Be Put To       (Unsupported)
Report     Number                               Title                                 Better Use          Costs


12/04/95   A62422     Preaward Audit of Multiple Award Schedule Contract: Harris
                      Corporation, Digital Telephone Systems Division, Solicitation
                      Number GSC-KES-00066-N-OS-09-95

12/04/95   A62425     Preaward Audit of Multiple A ward Schedule Contract:
                      Applied Voice Technology, Solicitation Number GSC-KES-
                      00066-N-OS-09-95

12/05/95   A10041     Postaward Audit of MUltiple Award Schedule Contract:
                      3Com Corporation, Contract Number GS-00K-S9-AGS-6344

12/05/95   A52157     Preaward Audit of MUltiple Award Schedule Contract:
                      Motorola, Inc., Solicitation Number GSC-KES-00066-N-OS-
                      09-95

12/0S/95   A52433     Postaward Survey of Multiple Award Schedule Contract:
                      Dionex Corporation, Contract Number GS-00F-5952A

12/11/95   A62423     Preaward Audit of Multiple Award Schedule Contract: Octel
                      Communications Corporation, Solicitation Number GSC-
                      KES-00066-N-OS-9-95

12/12/95   A007l3     Postaward Audit of Multiple A ward Schedule Contract:                              $439,534
                      Monroe Systems for Business, Inc., Contract Number
                      GS-00F-9155S

12/12/95   A30621     Posta ward Audit of MUltiple Award Schedule Contract:                               $13,764
                      Monroe Systems for Business, Inc., Contract Number GS-
                      00F-9155S

12/12/95   A60305     Preaward Audit of Multiple Award Schedule Contract: Med-
                      Eng Systems Inc., Solicitation Number 7FXG-B3-95-S411-B

12/14/95   A51S57     Preaward Audit of MUltiple Award Schedule Contract:
                      AlliedSignal Avionics, Inc., Solicitation Number GSC-KES-
                      00066-N -OS-09-95

12/14/95   A60312     Pre award Audit of Multiple Award Schedule Contract:
                      Perception Technology, Solicitation Number GSC-KES-
                      00066

12/15/95   A60905     Preaward Audit of Multiple Award Schedule Contract:
                      Ericsson, Incorporated, Solicitation Number GSC-KES-
                      00066-N -OS-09-95




                                                                                           Office of Inspector General 53
                       Appendix //- Audit Report Register
                                                                                                    Financial
                                                                                               Recommendations
                                                                                          - - ----------   -    - -   ---

                                                                                          Funds To          Questioned
Date of       Audit                                                                       Be Put To       (Unsupported)
Report        Number                                  Title                               Better Use          Costs


12/18/95      A62427         Preaward Audit of Multiple Award Schedule Contract:
                             Coastcom, Solicitation Number GSC-KES-00066-N-08-09-95

12/19/95      A42135         Poslaward Audit of Cost and Pricing Data: BDS,                                     $155,810
                             Incorporated, Contract Number GSOOK93AGS6234

12/19/95      A60910         Preaward Audit of Multiple Award Schedule Contract:
                             Comdial Corporation, Solicitation Number GSC-KES-00066-
                             N-08-09-95

12/21/95      A61505         Preaward Audit of Multiple Award Schedule Contract:
                             Tellabs Operations, Inc., Solicitation Number GSC-KES-
                             00066-N -08-09-95

12/21/95      A61506         Preaward Audit of Multiple Award Schedule Contract:
                             Telcom Systems Services, Inc., Solicitation Number GSC-
                             KES-00066-N-08-09-95

12/21/95      A62433         Preaward Audit of Multiple Award Schedule Contract: ACS
                             Wireless, Incorporated, Solicitation Number GSC-KES-
                             00066-N -08-09-95

01/03/96      A41827         Postaward Audit of Multiple A ward Schedule Contract:                             $1,597,909
                             Syncom Technologies, Inc., Contract Number GS-02F-4103A
                             for the Period June 24, 1991 Through December 8, 1993

01/03/96      A60912         Preaward Audit of MUltiple Award Schedule Contract: Canon
                             U.S.A., Inc., Solicitation Number GSC-KES-00066-N-08-
                             09-95

01/04/96      A62421         Pre award Audit of Multiple Award Schedule Contract:
                             Compression Labs, Incorporated, Solicitation Number GSC-
                             KES-00066-N -08-09-95

01/04/96      A62430         Preaward Audit of MUltiple Award Schedule Contract: Datron
                             World Communications, Inc., Solicitation Number GSC-
                             KES-00066-N -08-09-95

01/05/96      A62432         Limited Audit of Government Billings: Dionex Corporation,
                             Contract Number GS-00F-5952A

01/10/96      A6l810         Preaward Audit of Multiple Award Schedule Contract: Relm
                             Communications, Inc., dba BK Radio, Solicitation Number
                             GSC-KES-00066-N-08-09-95




54 Semiannual Report To The Congress
                     Appendix // .... Audit Report Register
                                                                                                   Financial
                                                                                              Recommendations
                                                                                                   ,---------------

                                                                                         Funds To          Questioned
Date of     Audit                                                                        Be Put To       (Unsupported)
Report      Number                                Title                                  Better Use          Costs

01/t 1/96   A60605     Preaward Audit of Multiple A ward Schedule Contract:
                       Panasonic Communications and Systems Company,
                       Solicitation Number GSC-KES-00066-N

0l/11/96    A61507     Preaward Audit of Multiple Award Schedule Contract: Fisher
                       Hamilton Scientific, Incorporated, Solicitation Number
                       FCGE-95-B6-015S-N-8-17-95

01/16/96    A60616     Preaward Audit of MUltiple Award Schedule Contract: Sharp
                       Electronics Corporation, Solicitation Number GSC-KES-
                       00066-N

01/16/96    A62443     Limited Audit of Government Billings: Datron World                                      $19,393
                       Communications, Inc., Contract Number GS-00K-93-AGS-
                       069S-PS02

01/17/96    A60319     Preaward Audit of Multiple Award Schedule Contract:
                       Amherst Process Instruments, Inc., Solicitation Number
                       FCGS-Z3-90-0020-3-N

0l/22/96    A63605     Preaward Audit of Multiple Award Schedule Contract: Nortel
                       Federal Systems, Inc., Solicitation Number GSC-KES-00066-
                       N-OS-09-95

0l/24/96    A6120S     Preaward Audit of Small Business Administration S (A)
                       Pricing Proposal: Trinity Furniture, Incorporated, Solicitation
                       Number 3FNO-95-M1D2-N-8-3-95

0l/25/96    A60914     Preaward Audit of Cost or Pricing Data: ITT Electro-Optical
                       Products Division, Solicitation Number 7FXG-B3-95-8411-B

01/26/96    A60917     Preaward Audit of Multiple Award Schedule Contract: Gately
                       Communication Co., Inc., Solicitation Number 7FXG-B3-
                       95-S411-B

02/09/96    A6032S     Audit of Cost and Pricing Data: Beech Aircraft Corporation,
                       Solicitation Number GSC-KEGD-95-1 009

02/15/96    A50946     Postaward Audit of Multiple Award Schedule Contract:
                       Eastman Kodak Company, Contract Number GS-00F-4415A
                       (SIN 51-100. PURCHASE), for the Period October 29, 1990
                       through September 30, 1993

02/15/96    A60323     Postaward Audit of Government Billings Under Contract                                  $10,871
                       Numbers GSOOK91AGS5897 and GSOOK94AGS5897: Data
                       Switch Corporation



                                                                                              Office of Inspector General 55
                       Appendix //- Audit Report Register
                                                                                                         Financial
                                                                                         ""-
                                                                                                    Recommendations
                                                                                               ----------   ------~-   ----------------_._--

                                                                                               Funds To          Questioned
Date of       Audit                                                                            Be Put To       (Unsupported)
Report        Number                                 Title                                     Better Use          Costs


02/15/96      A62441         Preaward Audit of Multiple Award Schedule Contract:
                             Dionex Corporation, Contract Number GS-00F-5952A

02/15/96      A63613         Preaward Audit of Multiple Award Schedule Contract:
                             Criticom, Inc., Solicitation Number GSC-KES-00066-N-08-
                             09-95

02/16/96      A62438         Preaward Audit of Multiple Award Schedule Contract:
                             PairGain Technologies, Inc., Solicitation Number GSC-KES-
                             00066-N -08-09-95

02/22/96      A51570         Postaward Audit of Multiple Award Schedule Contract:                                      $8,773
                             Cummins-Allison Corporation, Contract Number GS-OOF-
                             7174A

03/06/96      A41583         Postaward Audit of Multiple Award Schedule Contract:                                  $711,130
                             Boehringer Mannheim Diagnostics, Contract Number GS-
                             00F-2325A

03/08/96      A52134         Postaward Audit of Multiple Award Schedule Contract:                                  $184,970
                             Durafab, Inc., Contract Number GS-07F-4403A

03/12/96      A61822         Preaward Audit of Multiple Award Schedule Contract: Gill
                             Marketing Company, a Division of Gill Group, Inc.,
                             Solicitation Number 7FXG-Y8-95-7354-B

03/13/96      A60918         Preaward Audit of Multiple Award Schedule Contract:
                             Development Dimensions International, Inc., Solicitation
                             Number 2FYG-JI-94-0004-B

03/19/96      A50956         Postaward Audit of Multiple Award Schedule Contract:
                             Eastman Kodak Company, Contract Number GS-00F-4415A
                             (SIN 51-57, Maintenance) for the Period October 29, 1990
                             Through September 30, 1993

03/19/96      A62455         Postaward Survey of Multiple Award Schedule Contract:
                             International Computer Power, Inc., Contract Number GS-
                             07F-5055A

03/20/96      A40954        Postaward Audit of Multiple Award Schedule Contract:                                   $216,706
                            Eastman Kodak Company (Industrial X-Ray Business Unit)
                            Contract Number GS-00F-4525A for the Interim Period
                            February 15,1991 Through August 31, 1994




56 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                             Financial
                                                                                        Recommendations
                                                                                   Funds To          Questioned
Date of    Audit                                                                   Be Put To       (Unsupported)
Report     Number                              Title                               Better Use          Costs

03/20/96   A50914     Postaward Audit of Multiple Award Schedule Contract:                            $173,069
                      Eastman Kodak Company (Printing & Publishing Imaging
                      Business Unit) Contract Number GS-00F-4525A for the
                      Interim Period February 15, 1991 Through August 31, 1994

03/20/96   A61218     Preaward Audit of Multiple Award Schedule Contract:
                      Protective Apparel Corporation of America, Solicitation
                      Number 7FXG-B3-95-8411-B

03/22/96   A62460     Limited Audit of Government Billings: Octel                                      $24,327
                      Communications Corporation, Contract Numbers
                      GSOOK92AGS0424 and GSOOK95AGS0602

03/25/96   A50957     Postaward Audit of Multiple Award Schedule Contract:
                      Eastman Kodak Company, Contract Number GS-00F-4415A
                      (SIN 51-55, Rental of Copiers) for the Period October 29,
                      1990 Through September 30, 1993

03/25/96   A63624     Preaward Audit of Multiple Award Schedule Contract:
                      ConVault Mid-Atlantic, Inc., Solicitation Number 7FXG-M5-
                      96-5403-B

03/29/96   A50913     Postaward Audit of Multiple Award Schedule Contract:                             $26,885
                      Eastman Kodak Company (Professional Imaging Business
                      Unit) Contract Number GS-00F-4525A for the Interim Period
                      February 15,1991 Through August 31,1994

03/29/96   A61811     Postaward Audit of Multiple Award Schedule Contract:                             $30,542
                      Flexsteel Industries, Inc., Contract Number GS-00F-5323A
                      for the Interim Period May 1, 1991 Through April 25, 1995


ITS        INTERNAL AUDITS
02/09/96   A51843     Audit of Heartland Region's Integration Services Program

03/01/96   A60322     Advisory Report on the Information Technology Service
                      Overhead Expenses Incorporated Into The Federal Operations
                      Review Model, Phase I Process

03/12/96   A50906     Audit of the GSA Purchase of Telecommunications Services
                      (POTS) Program

03/22/96   A61814     Interim Advisory Report on the Federal Operations Review
                      Model Analysis of the Local Telecommunications Business
                      Line




                                                                                        Office of Inspector General 57
                       Appendix //- Audit Report Register
                                                                                                     Financial
                                                                                            -
                                                                                                Recommendations
                                                                                                 --------   - ------

                                                                                           Funds To          Questioned
Date of       Audit                                                                        Be Put To       (Unsupported)
Report        Number                                  Title                                Better Use          Costs


ITS           CONTRACT AUDITS
10/23/95      A62417         Accounting System Survey: Case Associates, Inc., Request
                             for Proposal Number GS-KEG-9600

11/13/95      A62435         Preaward Audit of Cost or Pricing Data: Hughes Aircraft
                             Company, Solicitation Number KEC-95-0016

12/01/95      A63611         Preaward Audit of Multiple Award Schedule Contract:
                             Microlog Corporation of Maryland, Solicitation Number
                             GSC-KES-00066-N -08-09-95

12/04/95      A63610         Preaward Audit of Multiple Award Schedule Contract: Innova
                             Communications, Inc., Solicitation Number GSC-KES-
                             00066-N-08-09-95

12/07/95      A60619         Preaward Audit of Change Order Proposal: AT&T
                             Communications, Contract Number GS-00K-89AHDOO08

12/29/95      A61209         Preaward Audit of Multiple Award Schedule Contract:
                             E-Systems Incorporated, Solicitation Number GSC-KES-
                             00066-N-08-09-95

12/29/95      A61210         Preaward Audit of Multiple Award Schedule Contract:                                 $6,788
                             Spectrafax Corporation, Solicitation Number GSC-KES-
                             00066-N-08-09-95

01/24/96      A60617        Preaward Audit of Change Order Proposal: AT&T
                            Communications, Contract Number GS-00K-89AHDOO08

02/09/96      A61213        Preaward Audit of Multiple Award Schedule Contract:
                            Cortelco International, Inc., Solicitation No. GSC-KES-
                            00066-N-08-09-95

02/21/96      A60631        Preaward Audit of Change Order Proposal: AT&T
                            Communications, Contract Number GS-00K-89AHDOO08

03/05/96      A61825        Report on Audit of Proposal for Initial Pricing of FAA LAAS,
                            GPS Augmentations and International Standards, RFP No.
                            GSC-KEGD-95-1009: Wilcox Electric, Inc., Kansas City,
                            Missouri

03/06/96      A61225        Report on Audit Proposal for Initial Pricing Under
                            Solicitation No. GSC-KEGD-95-1009: Intermetrics, Inc.,
                            Cambridge, Massachusetts




58 Semiannual Report To The Congress
                    Appendix // . . . Audit Report Register
                                                                                              Financial
                                                                                         Recommendations-----------

                                                                                    Funds To          Questioned
Date of    Audit                                                                    Be Put To       (Unsupported)
Report     Number                              Title                                Better Use          Costs

03/08/96   A60924     Pre award Audit of Federal Information Processing Support
                      Services Contract: CTA, Inc., Solicitation Number GSC-
                      KEGD-95-l009

03/11/96   A60925     Preaward Advisory Report on Agreed Upon Procedures:
                      Rannoch Corporation, Solicitation Number GSC-KEGD-95-
                      1009

03/15/96   A60928     Pre award Advisory Report on Agreed Upon Procedures:
                      Arinc Incorporated, Solicitation Number GSC-KEGD-95-
                      1009

03/19/96   A60927     Preaward Advisory Report on Agreed Upon Procedures: PRC,
                      Inc., Solicitation Number GSC-KEGD-95-1 009

03/19/96   A61224     Report on Audit of Proposal for Initial Pricing Under
                      Solicitation No. GSC-KEGD-95-1009: Integrinautics
                      Corporation, Palo Alto, California

03/20/96   A6123l     Report on Audit of Proposal for Initial Pricing Under
                      Solicitation No. GSC-KEGD-95-1009: United Airlines-UAL
                      Services, San Francisco, California

03/21/96   A60933     Preaward Audit of Federal Information Processing Support
                      Services Contract: E-Systems, a Raytheon Company,
                      Solicitation Number GSC-KEGD-95-1009

03/22/96   A60931     Preaward Audit of Federal Information Processing Support
                      Services Contract: Project Management Enterprises, Inc.,
                      Solicitation Number GSC-KEGD-95-1009

03/26/96   A60929     Preaward Advisory Report on Agreed Upon Procedures:
                      Synetics Corporation, Solicitation Number GSC-KEGD-95-
                      1009

03/26/96   A60932     Preaward Audit of Federal Information Processing Support
                      Services Contract: Optimus Corporation, Solicitation Number
                      GSC-KEGD-95-1 009

03/26/96   A6l222     Report on Audit of Proposal for Initial Pricing Under
                      Solicitation No. GSC-KEGD-95-1009: Advanced Manage-
                      ment Tcchnology, Inc., Washington, D.C

03/28/96   A60930     Preaward Advisory Report on Agreed Upon Procedures:
                      Overlook Systems Technologies, Inc., Solicitation Number
                      GSC-KEGD-95-1009



                                                                                         Office of Inspector General 59
                       Appendix //- Au t Report Register
                                                                                                     Financial
                                                                                                Recommendations
                                                                                           Funds To          Questioned
Date of       Audit                                                                        Be Put To       (Unsupported)
Report        Number                                  Title                                Better Use          Costs


03/28/96      A61228        Report on Audit of Proposal for Initial Pricing Under
                            Solicitation No. GSC-KEGD-95-1009: Racal Avionics, Ltd.,
                            London, England


FTS           INTERNAL AUDITS
03/20/96      A53029        Audit of Disputed Telecommunications Charges with Sprint


OTHER         INTERNAL AUDITS
11/04/95      A53051        Limited Audit of the Federal Telecommunications Service's
                            Fiscal Year 1995 Section 2 Assurance Statement

11/07/95      A53054        Limited Audit of the Information Technology Service's Fiscal
                            Year 1995 Section 2 Assurance Statement

11/07/95      A53055        Limited Audit of the Federal Supply Service Assurance
                            Statement Fiscal Year 1995 Section 2

11/07/95      A53056         Limited Audit of the Public Building Service's Fiscal Year
                             1995 Section 2 Assurance Statement

11/08/95      A52725        Limited Audit of the Office of Management Services and
                            Human Resources' Fiscal Year 1995 FMFIA Assurance
                            Statement

11/08/95      A52727        Limited Audit of the Chief Financial Officer's Fiscal Year
                            1995 Section 2 Federal Managers' Financial Integrity Act
                            Assurance Statement

11/21/95      A52726         Consolidated Report of Fiscal Year 1995 FMFIA, Section 2
                             Assurance Statements

12/20/95      A50953        Advisory Report on the Analysis of General Management &
                            Administrative Expenses Incorporated into the Federal
                            Operations Review Models, Phase I Process

12/20/95      A52143        Limited Audit of Interest Penalty Payments Performance
                            Measure

12/20/95      A52728        Limited Audit of the Chief Financial Officer's Fiscal Year
                            1995 Section 4 Federal Managers' Financial Integrity Act
                            Assurance Statement




60 Semiannual Report To The Congress
                    Appendix //- Audit                            port Register
                                                                                              Financial
                                                                                         Recommendations
                                                                                    Funds To          Questioned
Date of    Audit                                                                    Be Put To       (Unsupported)
Report     Number                              Title                                Better Use          Costs


01/03/96   A52720     Limited Audit of Public Buildings Service's "International
                      Facility Management Association: Real Property
                      Management-Customer Satisfaction" Performance Measure

01/04/96   A52718     Oversight of CPA Contract, FY 1995 Financial Statements

01/25/96   A63011     Limited Review of the General Services Administration's
                      Compliance with the Byrd Amendment Restrietions on
                      Lobbying Activities

02/23/96   A52168     Survey of Controls Over Payments to Contractors Indebted to
                      the Government

02/26/96   A60916     Advisory Report on Flexiplace Telecommuting Center
                      Program

03/18/96   A52721     Limited Audit of the Federal Telecommunications Service's
                      "Local Service Program Average Monthly Line Rate"
                      Performance Measure

03/25/96   A51507     Audit of GSA's Value Engineering Program

03/27/96   A43005     Audit of GSA's Aircraft Management Program

03/28/96   A53032     Audit of Potential Antideficiency Act Violation, the Thomas
                      Jefferson Commemoration Commission

03/29/96   A42724     Audit of the General Services Administration's Verification
                      of FTS2000 Billings


NON-GSA INTERNAL AUDITS
12/01/95   A53047     Audit of Administrative Procedures of the Administrative
                      Conference of the United States




                                                                                         Office ofInspector General 61
                             Appendix 111- Delinquent Debts

GSA's Office of the Chief Financial Officer provided the               that ARCS provides system-generated 30-day delinquency
following information.                                                 notices to debtors.
                                                                    • Began developing an interface with the Fleet Management
GSA Efforts to Improve Debt Collection                                Service that would prevent the double entry of vehicle
During the period October 1, 1995 through March 31, 1996,             claims into the accounting system.
GSA efforts to improve debt collection and reduce the amount        • Continued to use Governmentwide debt collection contracts
of debt written off as uncollectible focused on upgrading the         with private debt collection agencies. This is a particularly
collection function and enhancing debt management. These              useful vehicle for debt collection because the debt
activities included the following:
                                                                      collection agency only charges GSA for debts collected.
• Continued to offer pre-authorized debits (PAD) to GSA
                                                                    • Continued to refer delinquent debtors to the U.S. Army for
  debtors wishing to make monthly payments. Once a debtor
                                                                      inclusion in their booklet entitled, "List of Contractors
  agrees to a PAD, collection of the debt is virtually ensured
  because collection of the debt is automatically taken from          Indebted to the United States."
  the debtor's bank account.                                        • Executed administrative offsets of $13,176.97.
• Participated in and chaired the Kansas City area Credit and       • Continued to work with any debtor with a financial hardship
  Debit Collection Forum. These quarterly meetings have               by entering into a promissory note for installment payments.
  provided many new ideas for debt collection by means of             This saves GSA and the Department of Justice time and
  the interchange of ideas among the different members. In            money by not having to prosecute someone who cannot or
  the past, Dun and Bradstreet and representatives from the
                                                                      will not pay a debt.
  debt collection agencies have participated.
                                                                    • Conducted quarterly follow-ups with Public Buildings
• Continued participating in the Tax Refund Offset program
                                                                      Service contracting officers concerning claims and disputed
  which has proven helpful in collecting debts as well as
  indicating to the debtor in the pre-offset letter that the debt     delinquent accounts. Also, conducted quarterly follow-ups
  will be referred to the Internal Revenue Service.                   with the Office of Management Controls and Evaluation
                                                                      concerning audit-related items.
• Continued using the Accounts Receivable Collection
  System (ARCS) which provides a fully automated internal           • Continued to provide assistance to contracting offices on
  system for tracking all claim types. Of particular interest is      the correct procedures for processing claims.

Non-Federal Accounts Receivable

                                                             As of                    As of
                                                         October 1, 1995          March 31, 1996             Difference

 Total Amounts Due GSA                                      $49,622,366               $24,914,183          $(24,708,183)
 Amount Delinquent                                          $20,889,860               $15,328,261           $(5,561,599)


 Total Amount Written
 Off as Uncollectible
 Between 10/1/95 and
 3/31/96                                                        $65,428


Of the total amounts due GSA and the amounts delinquent as          The above numbers are estimates based on the best available
of October 1, 1995 and March 31, 1996, approximately                information at the time of publication.
$862,000 and $465,000 respectively, are being disputed.




62 Semiannual Report To The Congress
                         Appen                       IX IV --               Reporting Requirements

The table below cross-references the reporting requirements                                      No. 96-829 relative to the 1980 Supplemental Appropriations
prescribed by the Inspector General Act of 1978, as amended,                                     and Rescission Bill is also cross-referenced to the appropriate
to the specific pages where they are addressed. The                                              page of the report.
information requested by the Congress in Senate Report



                                                                Requirement                                                                                                  Page
 Inspector General Act
       Section 4(a)(2)-Review of Legislation and Regulations ............................................................................................. 30

       Section 5(a)(1 )-Significant Problems, Abuses, and Deficiencies .............................................................................. 2,6

       Section 5(a)(2)-Recommendations With Respect to Significant Problems, Abuses,
          and Deficiencies ..................................................................................................................................................... 2,6

       Section 5(a)(3)-Prior Recommendations Not Yet Implemented ............................................................................... .41

       Section 5(a)(4)-Matters Referred to Prosecutive Authorities ...................................... ,.............................................. 37

       Sections 5(a)(5) and 6(b)(2)-Summary of Instances Where Information Was Refused ........................................None

       Section 5(a)(6)-List of Audit Reports ........................................................................................................................ .44

       Section 5(a)(7)-Summary of Each Particularly Significant Report.. ......................................................................... 2,6

       Section 5(a)(8)-Statistical Tables on Management Decisions on Questioned Costs .................................................. 36

       Section 5(a)(9)-Statistical Tables on Management Decisions on Recommendations
          That Funds Be Put to Better Use ............................................................................................................................ 35

       Section 5(a)(10)-Summary of Each Audit Report Over 6 Months Old for Which No
          Management Decision Has Been Made .............................................................................. _............................. None

       Section 5(a)(11)-Description and Explanation for Any Significant Revised
          Management Decision ....................................................................................................................................... None

       Section 5(a)(l2)-Information on Any Significant Management Decisions With Which
          the Inspector General Disagrees ........................................................................................................................ None

 Senate Report No. 96-829
       Resolution of Audits .................................................................................................................................................... 34

       Delinquent Debts ......................................................................................................................................................... 62




                                                                                                                                                     Office of Inspector General 63
                                       Notes




64 Semiannual Report To The Congress
                        I'1lt.,
Federal Recycling program""       Printed on Recycled Paper
